1a
United States Court of Appeals
for the Eighth Circuit
_____________
No. 18-2926
_____________
Pharmaceutical Care Management Association
Plaintiff – Appellant
v.
Mylynn Tufte, in her official capacity as the State
Health Officer of North Dakota; Mark J. Hardy, in
his official capacity as the Executive Director of the
North Dakota Board of Pharmacy; Steven P. Irsfeld,
in his official capacity as President of the North
Dakota Board of Pharmacy; Wayne Stenehjem, in his
official capacity as the Attorney General of North
Dakota
Defendants – Appellees
_____________
Appeal from United States District Court
for the District of North Dakota – Bismarck
_____________
Submitted: October 15, 2019
Filed: August 7, 2020
_____________
Before SMITH, Chief Judge, GRUENDER and
BENTON, Circuit Judges.
_____________

2a
GRUENDER, Circuit Judge.
This case concerns Pharmaceutical Care
Management Association’s (“PCMA”) claim that the
Employee Retirement Income Security Act of 1974
(“ERISA”), 29 U.S.C. § 1001 et seq., and the Medicare
Prescription Drug, Improvement, and Modernization
Act of 2003 (“Medicare Part D”), 42 U.S.C. § 1395w101 et seq., preempt two sections of the North Dakota
Century Code (the “legislation”) regulating the
relationship between pharmacies, pharmacy benefits
managers (“PBMs”), and other third parties that
finance personal health services. After PCMA and
the State of North Dakota1 cross-moved for summary
judgment, the district court determined that only one
provision in the legislation was preempted by
Medicare Part D and entered judgment in favor of
North Dakota on the remainder of PCMA’s claims.
We affirm in part, reverse in part, and remand with
directions that judgment be entered in favor of
PCMA.
PCMA is a national trade association that
represents PBMs. PBMs are third-party health plan
administrators that manage prescription drug
benefits on behalf of health insurance plans. In this
role, PBMs negotiate prescription drug prices with
drug manufacturers and pharmacies, create
networks of pharmacies to fill prescriptions for
PCMA sued Mylynn Tufte, State Health Officer of North
Dakota, Mark Hardy, Executive Director of the North Dakota
Board of Pharmacy, Fran Gronberg, President of the North
Dakota Board of Pharmacy, and Wayne Stenehjem, Attorney
General of North Dakota, in their official capacities. Because of
the nature of PCMA’s claims, we refer to the defendants
collectively as “North Dakota.”
1

3a
insured individuals, and process insurance claims
when prescriptions are filled.
In 2017, North Dakota passed N.D. Century Code
sections 19-02.1-16.1 and 19.02.1-16.2, which,
according to North Dakota, “sought to define the
rights of pharmacist[s] in relation to [PBMs], and to
regulate certain practices by PBMs.” The legislation
regulates the fees PBMs and “third-party payer[s]”
may charge pharmacies, N.D. Cent. Code § 19-02.116.1(2); limits what copayments PBMs or third-party
payers may charge, id. § 19-02.1-16.1(4); dictates the
quality metrics PBMs and third-party payers may
use to evaluate pharmacies and structures how they
may reward performance, id. §§ 19-02.1-16.1(3), (11),
-16.2(4); prohibits, subject to certain exceptions,
PBMs from having “an ownership interest in a
patient assistance program and a mail order
specialty pharmacy,” id. § 19.02.1-16.2(3); regulates
benefits provisions and plan structures, id. §§ 1902.1-16.1(3), (4), (5) (8), (9), (11), -16.2(5); and
requires certain disclosures on the part of PBMs and
prohibits PBMs from setting limits on information
pharmacists may provide patients, id. §§ 19-02.116.1(6), (7), (10), -16.2(2). A PBM or third-party
payer that violates any section of the legislation is
guilty of a class B misdemeanor. Id. §§ 19-02.116.1(12), -16.2(6).
Shortly after the legislation’s enactment in 2017,
PCMA filed a complaint seeking a declaration of
preemption and an injunction prohibiting the
enforcement of the legislation. At summary
judgment, the district court determined that none of
the statutory provisions were preempted by ERISA
and that only one of the provisions was preempted by

4a
Medicare Part D. PCMA appeals, renewing its
argument that both ERISA and Medicare Part D
preempt the entire legislation.
We review de novo the district court’s preemption
and statutory interpretation rulings. Pharm. Care
Mgmt. Ass’n v. Rutledge, 891 F.3d 1109, 1112 (8th
Cir. 2018). With certain limited exceptions, ERISA
preempts “any and all State laws insofar as they may
now or hereafter relate to any employee benefit plan.”
29 U.S.C. § 1144(a) (emphasis added). “The breadth
of this section is well known,” Rutledge, 891 F.3d at
1112, and courts have struggled for decades to cabin
its reach in order to prevent the clause from
becoming “limitless,” Gobeille v. Liberty Mut. Ins.,
577 U.S. ---, 136 S. Ct. 936, 943 (2016); N.Y. State
Conf. of Blue Cross & Blue Shield Plans v. Travelers
Ins., 514 U.S. 645, 655-56 (1995) (rejecting an
“uncritical literalism” that extends ERISA’s
preemption clause to the “furthest stretch of its
indeterminacy”); see also Cal. Div. of Labor
Standards Enf’t v. Dillingham Constr., N.A., Inc.,
519 U.S. 316, 335 (1997) (Scalia, J., concurring)
(counseling courts to avoid reading the clause too
broadly because, “as many a curbstone philosopher
has observed, everything is related to everything
else”).
Endeavoring to clarify ERISA’s “unhelpful text,”
Travelers Ins., 514 U.S. at 656, the Supreme Court
has determined the clause preempts a state law that
“relates to” an ERISA plan by having an
impermissible “reference to” or “connection with” an
ERISA plan, id. Here, we need not address the
“connection with” element of the analysis because we
conclude the legislation is preempted due to its

5a
impermissible “reference to” ERISA plans. See
Pharm. Care Mgmt. Ass’n v. Gerhart, 852 F.3d 722,
730 (8th Cir. 2017) (“Where a State law is preempted
because it has a prohibited ‘reference to’ ERISA or
ERISA plans, we need not reach the question of
whether it is also preempted under the ‘connection
with’ prong of the analysis.”).
A state law has an impermissible “reference to”
ERISA plans where it (1) “acts immediately and
exclusively upon ERISA plans” or (2) “where the
existence of ERISA plans is essential to the law’s
operation.” Gobeille, 136 S. Ct. at 943. PCMA asserts
that the legislation is preempted because it imposes
requirements by reference to ERISA plans through
its definitions of “third-party payers” and “plan
sponsors.” According to PCMA, these references
“ensure[] that the existence of an ERISA plan
triggers application” of the legislation’s provisions.
The district court disagreed, determining that,
because the legislation also covers entities that are
not ERISA plans, it neither acts immediately and
exclusively upon ERISA plans nor does it make the
existence of an ERISA plan essential to the operation
of the regulatory scheme. We agree with PCMA that
the legislation is preempted because its references to
“third-party
payers”
and
“plan
sponsors”
impermissibly relate to ERISA benefit plans.
Sections 19-02.1-16.1 and -16.2 regulate
“[p]harmacy benefits manger[s]” and “[t]hird-party
payer[s].” N.D. Cent. Code §§ 19-02.1-16.1(1), 16.2(1). They then define a “[p]harmacy benefits
manager” as “a person that performs pharmacy
benefits management . . . for a . . . third-party payer.”
Id. § 19-03.6-01(4) (emphasis added). “Third-party

6a
payer” is defined as “an organization other than the
patient or health care provider involved in the
financing of personal health services.” Id. § 19-03.601(6). This definition includes ERISA plans, which
are necessarily “involved in the financing of personal
health services” and are distinct from “the patient or
health care provider.” See id.; 29 U.S.C. § 1002(1)
(explaining that, for the purposes of ERISA, an
employee benefit plan is one that is established “for
the purpose of providing” “medical, surgical, or
hospital care or benefits”). The legislation also
regulates “[p]lan sponsor[s],” which it defines as “the
employer in the case of an employee benefit plan
established or maintained by a single employer, or
the employee organization in the case of a plan
established or maintained by an employee
organization.” N.D. Cent. Code § 19-03.6-01(5)
(emphasis added). This definition is taken verbatim
from ERISA, see 29 U.S.C. § 1002(16)(B), and these
“plan sponsors,” depending on their functions, may
qualify as ERISA fiduciaries, see id. § 1002(21)(A).
Two of our prior cases dictate that regulating by
implicit reference to ERISA plans results in
preemption. First, in Gerhart, we determined that an
Iowa statute was preempted because it had a
prohibited “reference to” ERISA. 852 F.3d at 729-30.
Although we found that the Iowa act at issue
contained an “express reference” to ERISA, see id. at
729, we also noted that “the Iowa law . . . makes
implicit reference to ERISA through regulation of
PBMs who administer benefits for ‘covered entities,’
which, by definition, include health benefit plans and
employers, labor unions, or other groups ‘that
provide[] health coverage,’” id. (emphasis added). We
explained that because “[t]hese entities are

7a
necessarily subject to ERISA regulation,” the
requirements “necessarily affect[] ERISA plans,”
and, as a result, the Iowa law contained an
“impermissible reference to” ERISA. Id. at 729-30.
One year later, in Rutledge, we followed this
reasoning in evaluating an Arkansas statute that
was “similar in purpose and effect” to the Iowa law at
issue in Gerhart. See Rutledge, 891 F.3d at 1112.
There, we determined the Arkansas law contained an
impermissible “reference to” ERISA plans, see id. at
1112-13, because the challenged law regulated PBMs
that administered a “pharmacy benefits plan or
program,” see Ark. Code. Ann. § 17-92-507(a)(7)
(2017), which in turn was defined as any plan or
program that “pays for . . . pharmacist services,” id. §
17-92-507(a)(9). We concluded the Arkansas law
“implicitly referred to ERISA by regulating the
conduct of PBMs administering or managing
pharmacy benefits” on behalf of ERISA plans. See
Rutledge, 891 F.3d at 1112.
As in Gerhart and Rutledge, so too here. The
North Dakota legislation’s definitions of and
references to “pharmacy benefits manager,” “thirdparty payer,” and “plan sponsor” mean the
legislation’s provisions apply to plans “subject to
ERISA regulation.” Id. “Because benefits affected by
[the statute] are provided by ERISA-covered
programs, the requirements imposed for the
management and administration of these benefits
necessarily affects ERISA plans.” Gerhart, 852 F.3d
at 729. Thus, the existence of an ERISA plan is
essential to the law’s operation because “it cannot be
said that the . . . law functions irrespective of the

8a
existence of an ERISA plan.” Id. at 729-30 (internal
quotation marks, ellipses, and brackets omitted).
As the State of Arkansas did in Rutledge, North
Dakota argues that Gerhart should be limited to its
consideration of the Iowa law’s “express reference” to
ERISA plans and that Gerhart’s “implicit reference”
analysis is dicta inconsistent with Supreme Court
precedent.2 But we have already rejected this
argument. Rutledge, 891 F.3d at 1112 (“The state
argues that Gerhart should be limited to its
consideration of the Iowa Act’s ‘express reference’ to
ERISA, and that Gerhart’s ‘implicit reference’
analysis is dicta inconsistent with Supreme Court
precedent. We disagree.”). Instead, Gerhart and
Rutledge control, and a statute that implicitly
regulates ERISA plans as part of its regulatory
scheme is preempted by ERISA and cannot be saved
Citing Dillingham Construction, 519 U.S. at 325, North
Dakota argues that our cases construing the scope of ERISA’s
preemption clause conflict with Supreme Court precedent. The
State suggests that if a law regulates a class of third-party
administrators or claim processors whose customers merely
include but are not limited to ERISA plans, it logically follows
that the law does not act immediately and exclusively upon
ERISA plans and that the existence of ERISA plans is not
essential to the law’s operation. See also Pharm. Care Mgmt.
Ass’n v. District of Columbia, 613 F.3d 179, 189-90 (D.C. Cir.
2010) (reasoning similarly); Pharm. Care Mgmt. Ass’n v. Rowe,
429 F.3d 294, 304 (1st Cir. 2005) (same). The Supreme Court
recently granted a writ of certiorari in Rutledge, 589 U.S. ---,
140 S. Ct. 812 (2020) (mem.), to resolve this question. But
regardless of whether Gerhart and Rutledge were rightly
decided, we are bound by those panel decisions unless they are
abrogated by the Supreme Court or overruled by this circuit
sitting en banc. See Mader v. United States, 654 F.3d 794, 800
(8th Cir. 2011) (en banc).
2

9a
merely because the reference also includes entities
not covered by ERISA. See id. (rejecting Arkansas’s
argument that “we are not completely bound by” the
Gerhart panel’s reasoning).
Accordingly, the North Dakota legislation is
preempted because it “relates to” ERISA plans “by
regulating the conduct of PBMs administering or
managing pharmacy benefits.” See Rutledge, 891
F.3d at 1112; see also Metro. Life Ins. v
Massachusetts, 471 U.S. 724, 739 (1985) (“Even
indirect state action bearing on private pensions may
encroach upon the area of exclusive federal concern.”
(brackets omitted)); Express Scripts, Inc. v. Wenzel,
262 F.3d 829, 833 (8th Cir. 2001) (“State laws that
are not targeted at ERISA plans, but which
indirectly force a plan administrator to make a
particular decision or take a particular action may be
held to ‘relate to’ employee benefit plans.”).
Next, North Dakota urges in a footnote at the end
of its argument regarding ERISA preemption that, if
we find the legislation to be preempted, we should
“remand for a determination of which provisions are
saved from preemption under ERISA’s Savings
Clause.” The district court did not address this issue
and North Dakota provides no argument as to which
provisions might be saved by the savings clause. See
29 U.S.C. § 1144(b)(2)(A). We therefore conclude that
North Dakota has waived this issue. See Mahler v.
First Dakota Title Ltd. P’ship, 931 F.3d 799, 807 (8th
Cir. 2019) (finding an issue waived where plaintiff
mentioned it only in passing and did not include the
issue in the statement of issues); Hamilton v.
Southland Christian Sch., Inc., 680 F.3d 1316, 131819 (11th Cir. 2012) (holding that appellee’s failure to

10a
raise an affirmative defense on appeal waives any
right to claim such a defense on appeal).
For the reasons above, we affirm in part, reverse
in part, and remand with directions to enter
judgment in favor of PCMA.3
_____________

North Dakota does not cross-appeal the district court’s
determination that Medicare Part D preempts North Dakota
Century Code section 19-02.1-16.2(2). And because Gerhart and
Rutledge dictate that ERISA preempts the North Dakota
legislation in its entirety, we need not address that
determination. See Duffner v. City of St. Peters, 930 F.3d 973,
976 (8th Cir. 2019) (noting that “[w]e may affirm on any ground
supported by the record”).
3

11a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
PHARMACEUTICAL
CARE MANAGEMENT
ASSOCIATION,

)
)
)
)
Plaintiff,
)
vs.
)
)
MYLYNN TUFTE, in
)
her official capacity as
the State Health Officer )
of North Dakota; MARK )
J. HARDY, in his official )
)
capacity as the
Executive Director of the )
)
North Dakota Board of
)
Pharmacy; FRAN
)
GRONBERG, in her
)
official capacity as the
)
President of the North
)
Dakota Board of
Pharmacy; and WAYNE )
)
STENEHJEM, in his
)
official capacity as the
)
Attorney General of
)
North Dakota,
)
Defendants. )

ORDER GRANTING
IN PART AND
DENYING IN PART
THE PARTIES’
CROSS MOTIONS
FOR SUMMARY
JUDGMENT

Case No.: 1:17-cv-141

Before the Court are cross motions for summary
judgment. The Plaintiff, Pharmaceutical Care
Management Association (“PCMA”) filed its motion
for summary judgment on January 19, 2018. See
Docket No. 33. The Defendants, Mylynn Tufte, Mark

12a
Hardy, Fran Gronberg, and Wayne Stenehjem, in
their official capacities (collectively “North Dakota”),
filed a response in opposition and a cross-motion for
summary judgment on March 9, 2018. See Docket
Nos. 38 and 39. PCMA filed a response on April 9,
2018. See Docket No. 40. North Dakota filed a reply
onApril 23, 2018. See Docket No. 42. With the
Court’s permission, PCMA filed supplemental
authority on July 9, 2018. See Docket No. 44. North
Dakota filed a response to PCMA’s supplemental
authority on July 20, 2018. See Docket No. 50. In
light of recent case law, both parties also filed
supplemental briefing on July 20, 2018. See Docket
Nos. 48 and 49. For the reasons set forth below, the
Court grants, in part, each motion for summary
judgment and denies, in part, each motion for
summary judgment.
I. BACKGROUND
PCMA is a national trade association
representing pharmacy benefit managers (“PBMs”),
with its principal place of business in Washington,
D.C. See Docket No. 1. PBMs are third-party health
plan administrators that manage and administer
prescription drug benefits on behalf of health
insurance plans. See Docket No. 10-3, p. 3. PBMs
negotiate prescription drug prices with drug
manufacturers and pharmacies, create networks of
pharmacies to fill prescriptions, and process and pay
insurance claims. See Docket No. 1, p. 4. When an
insured patient fills a prescription, the pharmacy
generally contacts a PBM to obtain insurance
coverage and copayment information. See Docket No.
39-2, p. 6. After the pharmacy fills the prescription,

13a
the PBM reimburses the pharmacy based on a rate
set out in a contract between the PBM and the
pharmacy. See Docket No. 1, p. 6. The PBM then
bills the health insurance plan at a rate negotiated
between the PBM and the health insurance plan. See
Docket No. 39-2, p. 6. In sum, PBMs are
intermediaries between patients’ and health
insurance plans’ demand for prescription drugs and
manufacturers’
and
pharmacies’
supply
of
prescription drugs.
In April 2017, North Dakota’s governor, Doug
Burgum, signed Senate Bills 2258 and 2301 into law.
See S.B. 2258, 2017 Leg., 65th Sess. (ND 2017); S.B.
2301, 2017 Leg., 65th Sess. (ND 2017). The laws
regulate PBMs and pharmacies. According to North
Dakota, the legislation “sought to define the rights of
pharmacist in relation to [PBMs], and to regulate
certain practices by PBMs.” See Docket No. 39-1, p.
2. The legislation contains provisions concerning (1)
the practice of pharmacy; (2) pharmacy accreditation
and credentialing; and (3) perceived self-dealing and
abusive practices on the part of PBMs. The parties
contest the validity of various provisions, all of which
are summarized below.
A. PROVISIONS
CONCERNING
PRACTICE OF PHARMACY

THE

The legislation contains the following provisions
concerning the practice of pharmacy:


S.B. 2258 §1(7) allows pharmacies to
disclose “relevant” information to patients,
including “the cost and clinical efficacy of a
more affordable alternative drug if one is

14a
available,” and it prohibits gag orders on
such disclosure.


S.B. 2258 §1(5) allows pharmacies to
disclose to patients or plan sponsors
information regarding the amount of
reimbursement the pharmacy receives
after a prescription drug is dispensed.



S.B. 2258 § 1(8) authorizes pharmacies to
“mail or deliver drugs to a patient as an
ancillary service of a pharmacy.”



S.B. 2258 § 1(9) bars contracts that
prohibit pharmacies from charging patients
shipping and handling fees.



S.B. 2301 § 1(5) authorizes pharmacies to
dispense “any and all drugs allowed” under
their license.

B. PROVISIONS CONCERNING PHARMACY ACCREDITATION AND CREDENTIALING
The legislation contains the following provisions
concerning
pharmacy
accreditation
and
credentialing:


S.B. 2258 §1(11) prohibits PBMs from
requiring
“pharmacy
accreditation
standards or recertification requirements
inconsistent with, more stringent than, or
in addition to federal and state
requirements for licensure as a pharmacy
in this state.”



S.B. 2301 §1(4) similarly prohibits PBMs
from requiring, for participation in a PBM’s

15a
pharmacy
network,
“accreditation
standards or recertification requirements
. . . which are inconsistent with, more
stringent than, or in addition to the federal
and state requirements for licensure as a
pharmacy in this state.”


S.B. 2258 § 1(3) requires PBMS to utilize
pharmacy performance standards set by
unbiased, nationally recognize entities, and
it regulates the fees PBMs may impose
based on pharmacy performance standards.

C. PROVISIONS
CONCERNING
PERCEIVED SELF-DEALING AND ABUSIVE
PRACTICES ON THE PART OF PBMS
The legislation contains the following provisions
concerning perceived self-dealing and abusive
practices on the part of PBMs:


S.B. 2258 § 1(2) prohibits PBMs and thirdparty payers from charging pharmacies
certain fees, including fees that are
imposed after the point of sale, not reported
on the remittance advice for a claim, or are
not apparent at the time of claim
processing.



S.B. 2258 § 1(4) prohibits copayments that
exceed the cost of the medication being
purchased, and it bars PBMs from
“redact[ing] the adjudicated cost,” i.e., the
amount the PBM or third-party payer
reimburses a pharmacy for a prescription.



S.B. 2258 §1(10) requires PBMs to disclose
certain information about their pharmacy

16a
networks “to enable the pharmacy to make
an informed contracting decision.”


S.B. 2301 § 1(2) obligates PBMs and thirdparty payers having ownership interest in
a pharmacy to disclose, to plan sponsors, on
request, the difference between the amount
paid to the pharmacy and the amount
charged to the plan sponsor.



S.B. 2301 § 1(3) prohibits PBMs from
having an ownership interest in patient
assistance programs or mail-order specialty
pharmacy unless the PBM agrees “to not
participate in a transaction that benefits
the [PBM] . . . instead of another person
owed a fiduciary duty.”

On July 11, 2017, PCMA filed a complaint against
State Health Officer Mylynn Tufte; Executive
Director of the North Dakota Board of Pharmacy,
Mark J. Hardy; President of the North Dakota Board
of Pharmacy, Fran Gronberg; and North Dakota’s
Attorney General, Wayne Stenehjem. See Docket No.
1. PCMA then filed a motion for a preliminary
injunction on July 20, 2017. See Docket No. 10. The
Court held a hearing regarding PCMA’s motion for
preliminary injunction on August 22, 2017. See
Docket No. 24. On November 7, 2017, the Court
denied PCMA’s motion for a preliminary injunction.
See Docket No. 27. Now the Court considers the
parties’ cross-motions for summary judgment. See
Docket Nos. 33 and 38.

17a
II. LEGAL DISCUSSION
PCMA argues the legislation places restrictions
and requirements on PBMs that are preempted by
the Employee Retirement Income Security Act of
1974 (“ERISA”), 29 U.S.C. § 1001 et seq., and
Medicare Prescription Drug Improvement and
Modernization Act of 2003 (“Medicare Part D”), 42
U.S.C. § 1395w-101 et seq. PCMA seeks this Court’s
declaration that the legislation is expressly
preempted by federal law. In opposition, North
Dakota contends the legislation regulates areas of
concern that have been excepted from federal
regulation. As detailed below, the Court concludes
the legislation is not preempted by federal law, save
one provision requiring PBMs to disclose certain
information to health insurance plans, which the
Court finds preempted by an overlapping Medicare
Part D standard.
A. STANDARD OF REVIEW
Summary judgment is appropriate when the
evidence, viewed in a light most favorable to the nonmoving party, indicates no genuine issues of material
fact exist and the moving party is entitled to
judgment as a matter of law. Davison v. City of
Minneapolis, 490 F.3d 648, 654 (8th Cir. 2007); see
also Fed. R. Civ. P. 56(a). Summary judgment is not
appropriate if there are factual disputes that may
affect the outcome of the case under the applicable
substantive law. Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986). A genuine issue of material fact
is not the “mere existence of some alleged factual
dispute between the parties.” State Auto Ins. Co. v.

18a
Lawrence, 358 F.3d 982, 985 (8th Cir. 2004). Rather,
an issue of material fact is genuine “if the evidence is
such that a reasonable jury could return a verdict for
the nonmoving party.” Anderson, 477 U.S. at 248.
The moving party always bears the burden of
demonstrating the absence of a genuine issue of
material fact. Celotex Corp. v. Catrett, 477 U.S. 317,
323 (1986). The non-moving party may not rely
merely on allegations or denials; it must set out
specific facts showing a genuine issue for trial.
Forrest v. Kraft Foods, Inc., 285 F.3d 688, 691 (8th
Cir. 2002). The court must view the facts in the light
most favorable to the non-moving party. Adickes v.
S.H. Kress & Co., 398 U.S. 144, 157 (1970).
B. THE PREEMPTION DOCTRINE
The preemption doctrine is rooted in the
Supremacy Clause, which states federal law “shall be
the supreme Law of the Land . . . any Thing in the
Constitution or Laws of any State to the Contrary
notwithstanding.” U.S. Const. art. VI, cl. 2. Because
of the Supremacy Clause’s mandate, a state law that
conflicts with federal law is without effect. Maryland
v. Louisiana, 451 U.S. 725, 746 (1981). Courts have
delineated two types of preemption: express and
implied. See Gade v. Nat’l Solid Wastes Mgmt. Ass’n,
505 U.S. 88, 98 (1992). Express preemption occurs
when Congress has “unmistakably ordained” that its
enactments alone are to regulate a subject. Jones v.
Rath Packing Co., 430 U.S. 519, 525 (1977). Implied
preemption occurs when congressional command is
implicitly contained in a statute’s structure and
purpose. Gade, at 98.

19a
Congressional intent is at the base of all
preemption analysis. Cipollone v. Liggett Grp., Inc.,
505 U.S. 504, 516 (1992). Courts must start their
inquiry with the assumption that the historic police
powers of the States were not meant to be
superseded by federal law unless that was the “clear
and manifest” intent of Congress. Rice v. Sante Fe
Elevator Corp., 331 U.S. 218, 230 (1947); see also
Cipollone, at 516. This assumption assures the
“federal-state balance will not be disturbed
unintentionally by Congress or unnecessarily by the
courts.” Jones, 430 U.S. at 525. “[A] high threshold
must be met if a state law is to be preempted for
conflicting with the purposes of a federal Act.”
Chamber of Commerce of the U.S. v. Whiting, 563
U.S. 582, 607 (2011) (quoting Gade, 505 U.S. at 110).
C. ERISA PREEMPTION
ERISA comprehensively regulates employee
welfare benefit plans that “through the purchase of
insurance or otherwise,” provide medical, surgical, or
hospital care, or benefits in the event of sickness,
accident, disability, or death. 29 U.S.C. § 1002(1).
ERISA was intended to:
protect interstate commerce and the interests
of participants in employee benefit plans and
their beneficiaries, by requiring the disclosure
and reporting to participants and beneficiaries
of financial and other information with respect
thereto, by establishing standards of conduct,
responsibility, and obligation for fiduciaries of
employee benefit plans, and by providing for
appropriate remedies, sanctions, and ready
access to the Federal courts.

20a
29 U.S.C. § 1001(b).
“To meet the goals of a comprehensive and
pervasive Federal interest and the interests of
uniformity with respect to interstate plans, Congress
included an express preemption clause in ERISA for
the displacement of State action in the field of
private employee benefit programs.” Minn. Chapter
of Associated Builders & Contractors, Inc. v. Minn.
Dep’t of Pub. Safety, 267 F.3d 807, 810 (8th Cir.
2001). The Supreme Court has described the
preemption clause as having “a broad scope, and an
expansive sweep,” and being “conspicuous for its
breadth.” California Div. of Labor Standards
Enforcement v. Dillingham Constr., N.A., Inc., 519
U.S. 316, 324 (1997) (internal citation omitted).
The scope of ERISA preemption has left courts
“deeply troubled.” Prudential Ins. Co. of America v.
Nat’l Park Med. Ctr. Inc., 154 F.3d 812, 815 (8th Cir.
1998). Courts have struggled to reconcile the
sweeping language of ERISA’s preemption clause
with the assumption that Congress does not intend
to bar state action in fields of traditional state
regulation or historic police powers. See New York
State Conference of Blue Cross & Blue Shield Plans
v. Travelers Ins. Co., 514 U.S. 645, 654-55 (1995)
(“we have never assumed lightly that Congress has
derogated state regulation, but instead have
addressed claims of pre-emption with the starting
presumption that Congress does not intend to
supplant state law.”). The Supreme Court has
warned that ERISA’s preemption clause must not be
read to “extend to the furthest stretch of its
indeterminacy.” De Buono v. NYSA-ILA Med. and
Clinical Services Fund, 520 U.S. 806, 813 (1997).

21a
The preemption clause specifically provides that
ERISA “shall supersede any and all State laws
insofar as they may now or hereafter relate to any
employee benefit plan[.]” 29 U.S.C. § 1144(a)
(emphasis added). “Yet, Congress did not define what
it meant by state laws that ‘relate to’ an ERISA
benefit plan anywhere in the statute.” Prudential,
154 F.3d at 819. The Supreme Court has
“endeavored with some regularity to interpret and
apply the ‘unhelpful text’ of ERISA’s pre-emption
provision.” Dillingham, 519 U.S. at 324 (quoting
Travelers Ins. Co., 514 US at 656). The Court’s
endeavor has resulted in a two-part test. ERISA
preempts state laws that (1) include a reference to
ERISA plans, or (2) have an impermissible
connection with ERISA plans. Gobeille v. Liberty
Mut. Ins. Co., 136 S.Ct. 936, 943 (2016).
1. WHETHER S.B. 2258 AND S.B. 2301
INCLUDE A REFERENCE TO ERISA
PLANS
Neither S.B. 2258 nor S.B. 2301 contain an
explicit reference to ERISA or ERISA plans. ERISA
is not mentioned, discussed, defined, or excluded in
either bill. However, PCMA argues that both S.B.
2258 and S.B. 2301 contain “implicit” references to
ERISA because, within each bill, the terms
pharmacy benefit manager, third-party payer, and
plan sponsor are defined broadly enough to implicate
ERISA health plans. See Docket No. 33-1, pp. 16-18.
Under the “reference to” inquiry, the Supreme
Court has preempted state laws that (1) imposed
requirements by reference to ERISA covered
programs; (2) specifically exempted ERISA plans

22a
from an otherwise generally applicable statute; and
(3) premise a cause of action on the existence of an
ERISA plan. Prudential, 154 F.3d at 822. An
impermissible reference to ERISA occurs when a
state law “acts immediately and exclusively upon
ERISA plans . . . or where the existence of ERISA
plans is essential to the law’s operation[.]” Gobeille,
136 S.Ct. at 943 (internal citation and quotation
omitted).
PCMA cites the Eighth Circuit Court of Appeals
decision in Pharmaceutical Care Management
Association v. Gerhart for the proposition that a
general state-law reference broad enough to
encompass ERISA plans must result in preemption.
852 F.3d 722 (8th Cir. 2017). In PCMA’s words: “A
statute that implicitly refers to ERISA plans, such as
by including ‘health benefit plans’ within its scope,
has a prohibited reference to ERISA plans.” See
Docket No. 33-1, p. 16. In Gerhart, PCMA sued the
state of Iowa seeking a declaration that an Iowa
state law regulating how PBMs established generic
drug pricing was preempted by ERISA. Id. at 726.
The Eighth Circuit held the Iowa statute contained
an impermissible reference to ERISA. Id. at 729-30.
The court noted that, by its “express terms,” the Iowa
law “specifically exempts certain ERISA plans from
its otherwise general application.” Id. at 729. The
court held that “[b]ecause of this impermissible
reference to ERISA or ERISA plans, [the Iowa law] is
preempted under 29 U.S.C. § 1144(a).” Id. at 730.
The court also noted the law contained an “implicit
reference” to ERISA because it regulated PBMs that
administer benefits for plans subject to ERISA. Id. at
729.

23a
The Eighth Circuit recently commented on the
Gerhart
holding
in
Pharmaceutical
Care
Management Association. v. Rutledge, 891 F.3d 1109
(8th Cir. 2018). The court stated:
The state argues that Gerhart should be
limited to its consideration of the Iowa Act’s
“express reference” to ERISA, and that
Gerhart’s “implicit reference” analysis is dicta
inconsistent with Supreme Court precedent.
We disagree. In addition to finding that Iowa
Code § 510B.8 had a prohibited express
reference to ERISA, the Gerhart court found
that the “Iowa law also makes implicit
reference to ERISA through regulation of
PBMs who administer benefits for ‘covered
entities,’ which, by definition, include health
benefit plans and employers, labor unions, or
other groups ‘that provide[ ] health coverage.’
These entities are necessarily subject to ERISA
regulation.” 852 F.3d at 729.
Id. at 1112 (alteration in original).
PCMA argues the decisions in Gerhart and
Rutledge establish a new rule regarding the
“reference to” inquiry. See Docket No. 48, p. 8
(“Rutledge confirmed that an implicit reference to
ERISA exists even where the law does not only
regulate entities necessarily subject to ERISA
regulation.”) (emphasis in original). However, the
rule PCMA attempts to distill from Gerhart—that a
general state-law provision broad enough to
encompass ERISA plans within its scope constitutes
an implicit reference to an ERISA plan—would
vastly expand the scope of the ERISA preemption
doctrine. The Court finds nothing in the Eight

24a
Circuit’s analysis to indicate such an intent. The
Rutledge court explained Gerhart is not “inconsistent
with the Supreme Court’s precedent in Travelers or
De Buono . . . .” 891 F.3d at 1112. Those cases
require preemption under the “reference to” inquiry
when a state law (1) acts “immediately and
exclusively” on ERISA plans, or (2) when the
existence of an ERISA plan is “essential to the law’s
operation.” Gobeille, 136 S.Ct. at 943 (alteration in
original) (quoting Dillingham, 519 U.S. at 325).
Reading any state-law definition broad enough to
include ERISA plans within its scope to constitute an
impermissible “implicit” reference to ERISA would
extend the preemption clause “to the furthest stretch
of its indeterminacy.” De Buono, 520 U.S. at 813. For
example, North Dakota’s definition of “organization”
includes, among others, “any legal or commercial
entity,” N.D.C.C. § 1-01-49(5), and would “by
definition” include “entities [that] are necessarily
subject to ERISA regulation.” Gerhart, 852 F.3d at
729. The United States Supreme Court has rejected
this type of “uncritical literalism” in applying the
ERISA preemption clause. See Gobeille, 136 S.Ct. at
943 (quoting Travelers, 514 U.S. at 656). As such,
regarding the “reference to” analysis the Court must
conduct, it will apply the test set out in Dillingham
and refined by its progeny: “[w]here a State’s law
acts immediately and exclusively upon ERISA plans .
. . or where the existence of ERISA plans is essential
to the law’s operation . . ., that ‘reference’ will result
in pre-emption.” Gobeille, at 943 (alteration in
original) (quoting Dillingham, 519 U.S. at 325).

25a
i. NORTH DAKOTA’S DEFINITION
OF “PHARMACY BENEFITS MANAGER”
PCMA argues North Dakota’s definition of
“pharmacy benefits manager” includes entities that
provide services to ERISA plans, and thus the
definition constitutes an impermissible reference to
ERISA. See Docket No. 33-1, pp. 16-17. The
legislation provides that “pharmacy benefit
manager,” as used within each bill, has the same
definition as set out in N.D.C.C. § 19-03.6-01 (dealing
with pharmacy records audits). See S.B. 2258
§ 1(1)(a) and S.B. 2301 § 1(1)(a); see also N.D.C.C.
§§ 19-02.1-14.2(1)(d)
and
19-02.1-16.1(1)(a).
“Pharmacy benefits manager” is defined as:
[A] person that performs pharmacy benefits
management and includes any other person
acting for such person under a contractual or
employment relationship in the performance of
pharmacy benefits management for a
managed care company, nonprofit hospital or
medical service organization, insurance
company, third-party payer, or health program
administered by a state agency.
See N.D.C.C. § 19-03.6-01(4).
It is conceivable that a “pharmacy benefits
manager” could provide services to an insurance
plan, and that the insurance plan could be subject to
ERISA. But that is one outcome of many, and more
importantly, one not expressed in the legislation’s
language. A state law impermissibly references
ERISA when it “acts immediately and exclusively
upon ERISA plans . . . or where the existence of

26a
ERISA plans is essential to the law’s operation[.]”
Gobeille, 136 S.Ct. at 943. North Dakota’s definition
of “pharmacy benefits manager” includes entities
that contract with a broad range of parties. Although
insurance plans may be one of these parties, the
definition makes no distinction as to whether an
insurance plan is subject to ERISA. The Court finds
the legislation does not impermissibly reference
ERISA plans by way of North Dakota’s definition of
pharmacy benefits manager.
ii. NORTH DAKOTA’S DEFINITION
OF “THIRD-PARTY PAYER”
PCMA argues North Dakota’s definition of “thirdparty payer” impermissibly includes ERISA plans
within its scope. See Docket No. 33-1, pp. 16-17. The
legislation provides that the term “third-party
payer,” as used within each bill, has the same
definition as in N.D.C.C. § 19-03.6-01. See S.B. 2258
§ 1(1)(c) and S.B. 2301 §1(1)(d); see also N.D.C.C.
§ 19-02.1-16.1(1)(c). “Third-party payer” is defined as
“an organization other than the patient or health
care provider involved in the financing of personal
health services.” N.D.C.C. § 19-03.6-01(6). The
definition clearly applies to a broad range of entities
that have no relation to ERISA. The legislation, by
way of North Dakota’s definition of third-payer,
neither “acts immediately and exclusively upon
ERISA plans” nor is the “existence of ERISA plans
essential to the law’s operation.” Gobeille, 136 S.Ct.
at 943. The Court finds no impermissible reference to
ERISA in North Dakota’s definition of third-party
payer.

27a
iii. NORTH DAKOTA’S DEFINITION
OF “PLAN SPONSOR”
PCMA argues North Dakota’s definition of “plan
sponsor” impermissibly references ERISA plans.
PCMA specifically cites the definition’s inclusion of
the term “employee benefit plan,” which includes
ERISA plans within its scope. See Docket No. 33-1, p.
18. The legislation provides that “plan sponsor,” as
that term is used within each bill, has the same
definition as in N.D.C.C. § 19-03.6-01. See S.B. 2258
§ 1(1)(b) and S.B. 2301 § 1(1)(b); see also N.D.C.C.
§ 19-02.1-16.1(1)(b). That provision defines “plan
sponsor” as “the employer in the case of an employee
benefit plan established or maintained by a single
employer, or the employee organization in the case of
a plan established or maintained by an employee
organization . . . or other similar group that
establishes or maintains the plan.” See N.D.C.C.
§ 19-03.6-01(5) (emphasis added). PCMA contends
that because the reference to “employee benefit plan”
encompasses ERISA covered plans, it constitutes an
impermissible implicit reference to an ERISA plan.
See Docket No. 33-1, p. 18.
PCMA’s argument is without merit. The
legislation uses the term “plan sponsor” to either
allow pharmacies, or require PBMs, to disclose
certain information to, among others, the sponsors of
plans. See S.B. 2258 § 1(5) (allowing pharmacies to
disclose information to plan sponsors and patients
regarding drug reimbursement amounts); S.B. 2301
§ 1(2) (requiring PBMs to disclose the difference
between amounts paid to pharmacies and amounts
charged to plan sponsors for prescription drugs).
However, the plans referenced in the definition of

28a
“plan sponsors” may or may not be subject to ERISA,
and thus the law still has purpose absent ERISA
applicability. See e.g. 29 U.S.C. §§ 1003(b) and
1144(a) (exempting government-sponsored plans,
church-sponsored plans, workmen’s compensation
plans, and other types of plans from ERISA
regulation and preemption). In other words, the
legislation makes no distinction between ERISA and
non-ERISA plans, and it applies equally to both.
Thus, it does not constitute an impermissible
reference to ERISA or ERISA plans.
In sum, PCMA’s arguments regarding the scope
of certain terms and definitions oversimplifies the
issue. The “reference to” inquiry concerns the law’s
implications on ERISA plans—i.e., whether the law
“acts immediately and exclusively upon ERISA plans
. . . or where the existence of ERISA plans is
essential to the law’s operation[.]” Gobeille, 136 S.Ct.
at 943 (internal citation and quotation omitted).
North Dakota’s law does neither, and thus the Court
finds no impermissible reference to ERISA.
2. WHETHER THE LEGISLATION HAS
AN IMPERMISSIBLE CONNECTION
WITH ERISA PLANS
Because the Court finds that neither bill includes
a “reference to” ERISA, the Court continues its
preemption analysis under the “connection with”
prong. A state law has an impermissible “connection
with” ERISA plans when it “governs . . . a central
matter of plan administration” or “interferes with
nationally uniform plan administration.” Gobeille,
136 S.Ct. at 943. PCMA’s arguments largely focus on
PBMs’ relationships with ERISA plans. PCMA

29a
asserts the legislation’s imposition of requirements
on PBMs necessarily affects PBMs’ ability to provide
services to ERISA plans. Thus, PCMA’s logic
continues, the legislation’s limitations on PBMs have
impermissible downstream effects on ERISA plans
and plan administration. See Docket No. 33-1, pp.
20-21. In response, North Dakota emphasizes the
legislation’s relationship to the practice of
pharmacy—an area normally left to state regulation.
See Docket No. 49, p. 10.
Both parties also disagree as to how the Eighth
Circuit Court of Appeals’ recent decisions in Gerhart
and Rutledge bear on the “connection with” analysis
this Court must conduct. Gerhart involved an Iowa
law that regulated how PBMs establish generic drug
pricing and also mandated disclosure of PBMs’
maximum allowable cost (“MAC”) methodology.1 852
F.3d at 726. The Eighth Circuit found the
establishment of MAC lists and generic drug
reimbursement rates to be matters central to plan
administration, and it concluded Iowa’s regulation of
MAC calculations interfered with nationally uniform
plan administration. Id. at 731. Similarly, in
Rutledge, PCMA challenged an Arkansas law
mandating PBMs follow certain practices with
regard to MAC methodology. 891 F.3d at 1111. The
Eighth Circuit affirmed the district court’s conclusion
that the Arkansas law interferes with uniform plan
administration because it “regulates PBMs in ways
Maximum allowable cost lists detail the amount a PBM is
willing to reimburse a pharmacy for the purchase of a generic
prescription drug. Each PBM uses its own methodology to
determine these reimbursement rates and to create maximum
allowable cost lists. Gerhart, at 726.
1

30a
fundamentally similar to the Iowa statute in Gerhart
. . . .” 240 F. Supp. 3d. 951, 958 (E.D. Ark. 2017); 891
F.3d at 1112-1113;. While illustrative, the Court does
not find either Gerhart or Rutledge necessarily
dispositive of this case as the parties suggest. North
Dakota’s legislation does not mandate any specific
practice
regarding
MAC
methodology
or
reimbursement rates. Rather, the legislation
contains provisions regulating the practice of
pharmacy and pharmacy accreditation standards,
provisions addressing disclosure obligations, and
prohibitions on certain post point-of-sale fees that
may be levied on pharmacies. Thus, the Court will
examine the specifics of North Dakota’s law to
determine whether it (1) governs matters central to
plan administration, or (2) interferes with nationally
uniform plan administration. See Gobeille, 136 S.Ct.
at 943.
i. WHETHER THE LEGISLATION
GOVERNS MATTERS CENTRAL TO
PLAN ADMINISTRATION
A state law that governs matters central to
ERISA plan administration is preempted by ERISA.
Gobeille, 136 S.Ct. at 943. “Obligations undertaken
with plan administration include ‘determining the
eligibility of claimants, calculating benefit levels,
making disbursements, monitoring the availability of
funds for benefit payments, and keeping appropriate
records in order to comply with applicable reporting
requirements.’” Gerhart, 852 F.3d at 730 (quoting
Fort Halifax Packing Co. Inc., v. Coyne, 482 U.S. 1, 9
(1987)). Neither bill contains any provisions
concerning claimant eligibility determinations, the

31a
monitoring of funds for benefit payments, or the
keeping of appropriate records for reporting
requirements. Rather, the legislation limits the
supplanting
of
state
pharmacy
licensing
requirements, see e.g. S.B. 2258 § 1(11); S.B. 2301
§ 1(4), addresses conflicts occurring in the provision
of pharmacy services in North Dakota, see e.g. S.B.
2301 § 1(3), authorizes North Dakota pharmacies to
engage in certain practices, see e.g. S.B. 2258 §§ 1(7),
(8), and (9); S.B. 2301 § 1(5), and imposes disclosure
obligations and post point-of-sale fee limitations, see
e.g. S.B. 2258 §§ 1(2) and (4). In short, the legislation
largely regulates pharmacy services, certain fees,
and communication between pharmacies, their
customers, and PBMs. The Court finds neither bill
governs a matter central to ERISA plan
administration.
ii. WHETHER THE LEGISLATION INTERFERES WITH NATIONALLY
UNIFORM PLAN ADMINISTRATION
A state law that interferes with nationally
uniform plan administration is preempted by ERISA.
Gobeille, 136 S.Ct. at 943. PCMA argues the
legislation will impose a variety of burdens and
expenses upon PBMs, the imposition of which will
have a downstream effect on ERISA plans. The
legislation’s incidental effect on plans, PCMA
asserts, will result in interference with nationally
uniform plan administration. See Docket No. 33-1,
pp. 20-21. The Court does not doubt that, like other
state healthcare regulation, the legislation will have
some effect on healthcare plans. For example, the

32a
legislation places various requirements on PBMs
that may result in PBMs losing certain revenues or
incurring expenses. See, e.g., S.B. 2258 §§ 1(2) and
(9) (prohibiting PBMs from levying post point-of-sale
fees on pharmacies and requiring disclosure of
pharmacy network information to enable pharmacies
to make informed contracting decisions). PBMs may
attempt to recoup these lost revenues and expenses
by passing costs on to plans. These increased costs
could potentially affect plans’ decision-making. But
this effect is too tenuous to constitute interference
with nationally uniform plan administration. “[I]f
ERISA were concerned with any state action—such
as medical-care quality standards or hospital
workplace regulations—that increased costs of
providing certain benefits, and thereby potentially
affected the choices made by ERISA plans, [the
Court] could scarcely see the end of ERISA’s preemptive reach, and the words ‘relate to’ would limit
nothing.” Dillingham, 519 U.S. at 329.
PCMA’s arguments fail to bridge the gap between
the legislation and interference with plan
administration—let alone nationally uniform plan
administration. Put another way, PCMA has not
explained how the alleged effects of the legislation
will change how ERISA plans are administered. To
be sure, PCMA has explained, in detail, how the
legislation will force PBMs to modify their business
practices. See, e.g., Docket Nos. 33-3, 33-4, and 33-5.
But it has not articulated a change in custom or
practice that the legislation requires ERISA plans to
make. A state law interferes with nationally uniform
plan administration when it subjects plans to
different requirements in different states. See
Egelhoff, 532 U.S. at 148. North Dakota’s law does

33a
not impose any requirements on ERISA plans.
Consequently, the Court finds the legislation does
not interfere with nationally uniform plan
administration.
D. MEDICARE PART D PREEMPTION
Having determined the legislation is not
preempted by ERISA, the Court turns to the parties’
arguments concerning Medicare Part D preemption.
In regards to Medicare, Congress has proclaimed:
“The standards established under this part shall
supersede any State law or regulation (other than
State licensing laws or State laws relating to plan
solvency) with respect to [Part D] plans which are
offered by [Part D] organizations under this part.” 42
U.S.C. § 1395w-26(b)(3); see also 42 U.S.C. § 1395w112(g) (applying Part C’s preemption provision to
Part D). “The federal scheme preempts a state law
when (1) Congress or the Centers for Medicare and
Medicaid Services (CMS) has established ‘standards’
in the area regulated by the state law; and (2) the
state law acts ‘with respect to’ those standards.”
Rutledge, 891 F.3d at 1113 (citing § 1395w-26(b)(3)).
“For purposes of the preemption provision, a
standard is a statutory provision or a regulation
promulgated under [Medicare] and published in the
Code of Federal Regulations.” New York City Health
and Hospitals Corp. v. WellCare of New York, Inc.,
801 F. Supp. 2d 126, 140 (S.D.N.Y. 2011) (quoting
Med. Card Sys., Inc., v. Equipo Pro Convalecencia,
587 F. Supp. 2d 384, 387 (D.P.R. 2008)); see also
Uhm v. Humana, Inc., 620 F.3d 1134, 1148 n. 20 (9th
Cir. 2010).

34a
According to CMS, the agency responsible for
regulating Medicare Part D plans, Part D
preemption occurs “only when CMS actually creates
standards in the area regulated. To the extent we do
not create any standards whatsoever in a particular
area, we do not believe preemption would be
warranted.” Federal Regulations for Medicare
Program; Medicare Prescription Drug Benefit, 70
Fed. Reg. 4,320 (January 28, 2005). For preemption
to occur, “[c]onflict between the state law and the
federal standard is unnecessary.” Rutledge, 891 F.3d
at 1113.
Medicare’s preemption provision contains a
savings clause that expressly prohibits federal
interference with state regulation of the practice of
medicine: “Nothing in this subchapter shall be
construed to authorize any Federal officer or
employee to exercise any supervision or control over
the practice of medicine or the manner in which
medical services are provided . . . .” 42 U.S.C. § 1395.
In addition, the Medicare preemption provision
expressly exempts “State licensing laws or State laws
relating to plan solvency” from its scope. 42 U.S.C.
§ 1395w-26(b)(3).
PCMA argues nearly every provision of the
legislation is preempted by Medicare Part D. North
Dakota asserts none are preempted. The Court will
address each contested provision in the following
order: (1) provisions concerning the practice of
pharmacy; (2) provisions regarding accreditation and
credentialing requirements; and (3) provisions
directed at perceived abusive practices and PBM selfdealing. But first the Court turns to PCMA’s
preliminary argument that three specific Medicare

35a
provisions generally preempt any state regulation of
contracts between PBMs and pharmacies.
1. PCMA’S GENERAL
ARGUMENT

PREEMPTION

PCMA first argues 42 U.S.C. § 1395w-104, which
provides beneficiary protections for prescription drug
coverage, preempts any state regulation of contracts
between pharmacies and Part D plans. See Docket
Nos. 33-1, p. 36 and 40, p. 46. PCMA specifically
points to Section 1395w-104(b)(1)(A), requiring Part
D plans to “permit the participation of any pharmacy
that meets the terms and conditions under the plan.”
PCMA argues that because of this standard “a Part
D Sponsor need not contract with a pharmacy that
does not meet those terms and conditions; if a
pharmacy wishes to participate in a plan sponsor’s
network, it has no choice but to accept the plan’s
‘terms and conditions.’” See Docket No. 33-1, p. 36.
Thus, PCMA contends the legislation “interfere[s]
with that standard by preventing North Dakota’s
pharmacies from accepting the plan’s ‘terms and
conditions.’” See Docket No. 33-1, p. 36. First, the
Court disagrees with PCMA’s characterization of this
standard, i.e. that it was meant to give pharmacies
“no choice but to accept the plan’s ‘terms and
conditions.’” See Docket No. 33-1, p. 36. The standard
ensures
patients
have
ready
access
to
pharmaceutical services—hence its title: “Access to
covered part D drugs—assuring pharmacy access—
Participation of any willing pharmacy.” 42 U.S.C.
§ 1395w-104(b)(1)(A); see also Rutledge, 891 F.3d at
1114 (characterizing the standard as setting “forth
requirements with regard to Medicare recipients’

36a
access to pharmacies”). Moreover, this standard has
no bearing on the negotiation and contracting
process between pharmacies and PBMs. The Court
finds Section 1395w-104(b)(1)(A) does not overlap
with North Dakota’s regulation of contracts between
pharmacies and PBMs, and thus it does not preempt
the legislation.
PCMA similarly argues 42 C.F.R. § 423.505,
which provides certain requirements for contracts
between CMS and Part D plan sponsors, preempts
any state regulation of contracts between pharmacies
and PBMs. See Docket Nos. 33-1, p. 37 and 40, p. 46.
PCMA specifically cites Section 423.505(b)(18)
requiring Part D plans to agree “to have a standard
contract with reasonable and relevant terms and
conditions of participation whereby any willing
pharmacy may access the standard contract and
participate as a network pharmacy . . . .” This
standard parallels 42 U.S.C. § 1395w-104, discussed
directly above, to ensure Part D beneficiaries have
access to pharmaceutical services. Moreover, it only
applies to contracts “between the Part D plan
sponsor and CMS.” Section 423.505(a). The Court
concludes this provision does not preempt the
legislation’s regulation of contracts between PBMs
and pharmacies.
Last, PCMA argues the Medicare Part D “noninterference clause” preempts all state regulation of
contracts between PBMs and pharmacies. See Docket
Nos. 33-1, p. 38; 40, pp. 26-27; and 48, p. 11. The
clause provides:
In order to promote competition under this
part and in carrying out this part, the
Secretary –

37a
(1) may not interfere with negotiations
between
drug
manufacturers
and
pharmacies and PDP sponsors; and
(2) may not require a particular formulary or
institute a price structure for the
reimbursement of covered part D drugs.
42 U.S.C. § 1395w-111(i). By its plain terms, the
clause prohibits the Secretary of the United States
Department of Health and Human Services from
interfering in certain areas. However, the Eighth
Circuit Court of Appeals has interpreted the clause
to prohibit “both federal and state interference in
negotiations between Part D sponsors and
pharmacies . . . .” Rutledge, 891 F.3d at 1113
(emphasis added). PCMA argues “every challenged
provision of [the legislation] interferes in contract
negotiations between plan sponsors/PBMs and
pharmacies by mandating or proscribing outcomes on
issues that would otherwise be bargained for.” See
Docket No. 33-1, p. 38.
PCMA’s argument—that the non-interference
clause creates a type of general field preemption of
state regulation on PBM contracts—is unpersuasive.
First, Rutledge did not decide the preliminary issue
of whether the non-interference clause even applies
to PBM-related regulation. By its plain terms, the
clause prohibits interference between “drug
manufactures and pharmacies and PDP sponsors.”
42 U.S.C. § 1395w111(i)(1). And thus Rutledge did
not hold, as PCMA suggests, that any and all state
regulation of contract negotiations between
pharmacies and PBMs is preempted by Medicare
Part D. Rather than finding the non-interference
clause creates a type of field preemption, Rutledge

38a
explained: “The federal scheme preempts a state law
when (1) Congress or [CMS] has established
‘standards’ in the area regulated by the state law;
and (2) the state law acts ‘with respect to’ those
standards.” Rutledge, at 1113. Rutledge then went on
to examine specific Medicare Part D standards and
concluded the state laws at issue were preempted
because they acted “with respect to” the Part D
Standard. See Rutledge, at 1113-1114 (finding
Arkansas laws regulating the price of retail drugs
and allowing pharmacies to decline to dispense drugs
were preempted by the Medicare Negotiated Price
Standard and the Medicare Pharmacy Access
Standard). Given the Eighth Circuit’s recent analysis
in Rutledge, the Court concludes Section 1395w111(i)
does not bar states from all regulation of PBM
contracts. Accordingly, as instructed by Rutledge, the
Court will examine each provision of the legislation
to determine (1) if Congress or CMS has established
a standard in the area regulated; and (2) whether the
state regulation acts with respect to those standards.
Id. at 1113. The Court concludes all but one provision
survive Medicare Part D analysis.
2. PROVISIONS
CONCERNING
PRACTICE OF PHARMACY

THE

The legislation contains various provisions
regulating the practice of pharmacy. It contains
provisions: (1) allowing pharmacies to dispense any
drug they are licensed to dispense; (2) allowing
pharmacies to disclose pricing information to
patients; and (3) allowing pharmacies to mail or
deliver drugs to patients. As detailed below, the
Court finds these provisions, which regulate the

39a
practice of pharmacy in North Dakota, are not
preempted by Medicare Part D. They do not act with
respect to a Medicare standard, and even if they did,
they regulate the practice of medicine and thus fall
within the scope of the Medicare savings clause. See
42 U.S.C. § 1395 (“Nothing in this subchapter shall
be construed to authorize any Federal officer or
employee to exercise any supervision or control over
the practice of medicine or the manner in which
medical services are provided”).
i. PHARMACIES MAY DISPENSE
ANY DRUG ALLOWED BY THEIR
LICENSE
The legislation provides: “A licensed pharmacy or
pharmacist may dispense any and all drugs allowed
under that license.” S.B. 2301 § 1(5). PCMA suggests
this provision acts with respect to CMS’s standards
concerning formularies. PCMA argues: “[T]his
provision would bar the use of formularies. A
formulary is a list of drugs that a Part D plan covers.
CMS extensively regulates the development and use
of formularies. . . . Allowing North Dakota to ban
formularies
deliberately
undermines
CMS’s
contemplation, regulation, and approval of them.”
See Docket No. 33-1, p. 47. The Court disagrees. This
provision allows pharmacies to dispense drugs in a
manner consistent with their licenses. It has no
bearing on whether a drug may be listed on a
formulary, and it contains no language banning
formularies or compelling Part D plans to cover any
drugs. The Court finds PCMA’s arguments
unavailing.

40a
ii. PHARMACY DISCLOSURE OBLIGATIONS
The legislation contains two provisions regarding
pharmacy disclosure obligations. It first contains a
provision concerning the disclosure of information
regarding drug efficiency and cost:
A pharmacy or pharmacist may provide
relevant information to a patient if the patient
is
acquiring
prescription
drugs.
This
information may include the cost and clinical
efficacy of a more affordable alternative drug if
one is available. Gag orders of such a nature
placed on a pharmacy or pharmacist are
prohibited.
S.B. 2258 § 1(7). The legislation also contains a
provision
allowing
pharmacies
to
disclose
reimbursement amounts they receive:
A pharmacy or pharmacist may disclose to the
plan sponsor or to the patient information
regarding the adjudicated reimbursement paid
to the pharmacy which is compliant under the
federal Health Insurance Portability and
Accountability Act of 1996 . . . .
S.B. 2258 § 1(5). In support of preemption, PCMA
asserts CMS has developed standards concerning
what information must be disclosed to plan
beneficiaries. PCMA cites to various provisions
identifying plan sponsors’ disclosure obligations to
beneficiaries. See Docket No. 40, p. 53; see also 42
U.S.C. § 1395w-104(a)(1) and (a)(2) (setting forth
annual disclosure obligations plan sponsors must
provide to plan enrollees); 42 U.S.C. § 1395w-104(k)

41a
(plan sponsors must ensure pharmacies inform plan
enrollees of “any differential between the price of the
drug to the enrollee and the price of the lowest priced
generic covered part D drug under the plan”).
However, North Dakota’s law does not speak to plan
sponsor disclosure obligations. Rather, it sets forth
disclosure obligations for pharmacies. Thus, it does
not overlap with the standards PCMA cites.
Moreover, it falls squarely within the savings clause
for regulations concerning the manner in which
medical services are provided. See 42 U.S.C. § 1395.
iii. DRUG DELIVERY SERVICES
The legislation also authorizes pharmacies to
mail or deliver drugs to patients: “A pharmacy or
pharmacist may mail or deliver drugs to a patient as
an ancillary service of a pharmacy.” S.B. 2258 § 1(8).
A related provision allows pharmacies to charge
shipping and handling fees: “A pharmacy benefits
manager or third-party payer may not prohibit a
pharmacist or pharmacy from charging a shipping
and handling fee to a patient requesting a
prescription be mailed or delivered.” S.B. 2258 § 1(9).
In support of preemption, PCMA cites standards that
“contemplate the existence of mail-order pharmacies
that are distinct from retail pharmacies.” See Docket
No. 33-1, p. 44; see also 42 C.F.R. § 423.120(a)(1)
(authorizing Part D sponsors to charge beneficiaries
higher cost-sharing amounts for using retail
pharmacies instead of mail-order pharmacies).
PCMA also cites the definition of “dispensing fees,”
which includes “pharmacy costs associated with
ensuring that possession of the appropriate covered
Part D drug is transferred to a Part D enrollee.” 42

42a
C.F.R. § 423.100. Although the standards PCMA
relies on might “contemplate the existence” of mail
order pharmacies, they do not regulate mail order
pharmacy services like North Dakota’s law. Thus,
there is no overlap between the legislation and the
federal standards. And even if there was, the Court
finds the legislation’s provisions regarding drug
delivery services constitutes a regulation concerning
the manner in which medical services are provided
under the Medicare savings clause. See 42 U.S.C.
§ 1395.
3. PROVISIONS REGARDING PHARMACY ACCREDITATION AND CREDENTIALING REQUIREMENTS
The legislation contains provisions concerning
two areas of pharmacy accreditation and
credentialing.
First,
it
contains
provisions
prohibiting PBMs from imposing accreditation
requirements that are stricter than state and federal
law. Second, the legislation requires PBMs to utilize
benchmarks set by an unbiased, nationallyrecognized entity when evaluating pharmacy
performance, and it regulates the fees PBMs may
levy on pharmacies due to deficient performance. As
detailed below, the Court finds none of these
provisions overlap with a CMS standard. Further, to
the extent any did, they would fall under the
Medicare preemption provision’s exception for state
laws concerning licensing. See 42 U.S.C. § 1395w26(b)(3) (Medicare standards supersede any state law
or regulation “other than State licensing laws”); see
also 42 U.S.C. § 1395w-112(g) (applying Part C’s
preemption provision to Part D).

43a
i. IMPOSITION OF ACCREDITATION
REQUIREMENTS
With respect to PBMs’ imposition of accreditation
requirements on pharmacies, the legislation
provides:
A pharmacy benefits manager or third-party
payer may not require pharmacy accreditation
standards or recertification requirements
inconsistent with, more stringent than, or in
addition to federal and state requirements for
licensure as a pharmacy in this state.
S.B. 2258 § 1(11). The legislation also regulates the
accreditation requirements pharmacies must satisfy
to participate in PBM networks:
A pharmacy benefits manager or third-party
payer may not require pharmacy accreditation
standards or certification requirements to
participate in a network which are
inconsistent with, more stringent than, or in
addition to the federal and state requirements
for licensure as a pharmacy in this state.
S.B. 2301 § 1(4).
In support of preemption, PCMA points to federal
standards requiring Part D sponsors to have quality
assurance arrangements that ensure cost-efficiency,
avoid adverse drug interactions, and mitigate
medication errors. See Docket No. 33-1, p. 40; see
also 42 U.S.C. § 1395w-104(c); 42 C.F.R. § 423.153(c).
PCMA asserts these standards go “above and beyond
state pharmacy licensing” and that CMS has
“reserved for itself the role of partnering with private
industry to identify the optimum performance

44a
measures.” See Docket No. 33-1, p. 40. However, as
explained below, the regulation of pharmacy practice
standards has been left to the states, and CMS has
not imposed any pharmacy accreditation standards.
In fact, the same standard PCMA cites requires Part
D sponsors to ensure pharmacies “comply with
minimum standards for pharmacy practice as
established by the States.” 42 C.F.R. § 423.153(c)(1).
CMS has explained in its commentary:
It has been our longstanding policy to leave
the establishment of pharmacy practice
standards to the states, and we do not intend
to change that now. We continue to believe
pharmacy practice standards established by
the states provide applicable minimum
standards for all pharmacy practice standards,
and § 423.153(c)(1) requires representation
that network providers are required to comply
with minimum standards for pharmacy
practice as established by the states.
Medicare Policy and Technical Changes; Contract
Year 2019, 82 Fed. Reg. 56,336-01, 56,411 (Nov. 28,
2017) (to be codified at 42 C.F.R. pts. 405, 417, 422,
423 and 498).
After seeking public comment on various
proposed rules, CMS indicated it does not intend to
regulate pharmacy accreditation standards:
Several
commenters
provided
that
accreditation is best performed by an
independent, third-party actor . . . . Several
commenters believed that CMS should
establish accreditation standards, and that
CMS approval should be the only requirement

45a
for acceptance of accreditation . . . . Many
commenters contended.
[....]
While we did not propose specific accreditation
standards, we will consider it in the future if
we find that our current requirements are no
longer sufficient . . . . While CMS appreciates
the commenters’ concerns that accreditation is
best performed by an independent, third-party
actor, we did not consider such a policy change
in the proposed rule and would need to
consider the issue further.
Medicare Policy and Technical Changes; Contract
Year 2019, 83 Fed. Reg. 16,440-01, 16,597-598 (Apr.
16, 2018) (to be codified at 42 C.F.R. pts. 405, 417,
422, 423 and 498). In this same commentary, CMS
specifically addressed a comment concerning North
Dakota’s accreditation provision:
Comment: A commenter provided that North
Dakota and New Hampshire have enacted
laws prohibiting PBMs from requiring
additional accreditation other than the
requirement of the applicable state board of
pharmacy. Another commenter offered that
they have seen situations where state
standards are insufficient, unenforced, or
unmonitored.
Response: CMS thanks the stakeholder for
this information, and encourages commenters
to keep us apprised of such examples.
However, at present, we continue to believe
state pharmacy practice acts represent a

46a
reasonably consistent minimum standard of
practice.
Id. at 16,598. Although the Court owes no deference
to CMS, the agency does have a unique
understanding of the Medicare statutes, and the
Court may consider its commentary. See Wyeth v.
Levine, 555 U.S. 555, 576-77 (2009) (although
agencies generally have no authority to pronounce on
preemption, their unique understanding of the
statutes they administer gives them an ability to
make determinations about how state requirements
may impact the federal regulatory scheme); see also
Uhm, 620 F.3d at 1155. As CMS has explained,
accreditation and licensing are areas of regulation
that have been left to the states. Because CMS has
not promulgated standards in this area, the Court
finds North Dakota’s legislation concerning
pharmacy accreditation requirements is not
preempted by Medicare Part D.
ii. PHARMACY
BENCHMARKS

PERFORMANCE

The legislation also requires PBMs to utilize
benchmarks set by an unbiased, nationallyrecognized entity when evaluating pharmacy
performance, and it regulates the fees PBMs may
levy on pharmacies due to their deficient
performance. Section 1(3) of S.B. 2258 provides as
follows:
3. Pharmacy performance measures or pay for
performance pharmacy networks shall
utilize the electronic quality improvement
platform for plans and pharmacies or other

47a
unbiased nationally recognized entity
aiding in improving pharmacy performance
measures.
a. A pharmacy benefits manager or thirdparty payer may not collect a fee from a
pharmacy
if
the
pharmacy’s
performance scores or metrics fall
within the criteria identified by the
electronic quality improvement platform
for plans and pharmacies or other
unbiased nationally recognized entity
aiding
in
improving
pharmacy
performance measures.
b. If a pharmacy benefits manager or
third-party payer imposes a fee upon a
pharmacy for scores or metrics or both
scores and metrics that do not meet
those established by the electronic
quality improvement platform for plans
and pharmacies or other nationally
recognized entity aiding in improving
pharmacy performance measures, a
pharmacy benefits manager or thirdparty payer is limited to applying the
fee to the professional dispensing fee
outlined in the pharmacy contract.
c. A pharmacy benefits manager or thirdparty payer may not impose a fee
relating to performance metrics on the
cost of goods sold by a pharmacy.
S.B. 2258 § 1(3). PCMA argues this provision is
preempted by the same federal standards cited
above, which require Part D plan sponsors to have

48a
quality assurance arrangements that ensure costefficiency, avoid adverse drug interactions, and
mitigate medication errors. See Docket No. 33-1, pp.
39-41; see also 42 U.S.C. § 1395w-104(c); 42 C.F.R.
§ 423.153(c). The Court rejects this argument for the
same reasons articulated above. CMS has not
articulated pharmacy practice standards. Rather,
Part D sponsors must take measures to ensure
pharmacies “comply with minimum standards for
pharmacy practice as established by the States.” 42
C.F.R. § 423.153(c)(1). North Dakota’s legislation
sets a standard for pharmacy performance by
articulating the benchmarks that may be used to
measure pharmacy performance—i.e., the “electronic
quality improvement platform for plans and
pharmacies” or “other unbiased nationally recognized
entity aiding in improving pharmacy performance
measures.” S.B. 2258 § 1(3). The Court concludes
S.B. 2258 § 1(3) is not preempted.
4. PROVISIONS CONCERNING SELFDEALING AND ABUSIVE PRACTICES
North Dakota’s law contains various provision
directed at perceived self-dealing and abusive
practices on the part of PBMs. The legislation (1)
prohibits PBMs from levying certain fees and
charges on pharmacies and patients; (2) imposes
disclosure obligations on PBMs; and (3) prohibits
PBMs that own mail-order or specialty pharmacies
from engaging in self-dealing. As articulated below,
the Court finds the bulk of the law not preempted,
save one provision requiring PBMs to disclose certain
information to plans, which the Court finds

49a
preempted by an overlapping Medicare Part D
standard.
i. REGULATION
CHARGES

OF

FEES

AND

The legislation provides the following prohibitions
on post point-of-sale fees:
2. A pharmacy benefits manager or thirdparty payer may not directly or indirectly
charge or hold a pharmacy responsible for a
fee related to a claim:
a. That is not apparent at the time of
claim processing;
b. That is not reported on the remittance
advice of an adjudicated claim; or
c. After the initial claim is adjudicated at
the point of sale.
S.B. 2258 § 1(2). PCMA argues CMS has enacted
“intricate standards” concerning post point-of-sale
fees. See Docket No. 40, p. 56. PCMA points to
standards that contemplate post point-of-sale fees in
reconciliation calculations used to determine the
amounts Part D sponsors “actually pay” for
prescription drugs.2 See Docket No. 40, pp. 56-57; see
PCMA explains the reconciliation process: “CMS requires
sponsors and PBMs to report post point-of-sale fees to CMS by
requiring them to report amounts ‘actually paid’ for the drugs
and the [remuneration] a plan has received. . . . The amounts
reported by plans and PBMs factor into payments by CMS. At
the end of a contract year, through a reconciliation process,
CMS makes final reinsurance and risk corridor payments to
Part D sponsors based on the amounts ‘actually paid’ by the
2

50a
e.g. 42 C.F.R. § 423.308 (defining “direct and indirect
remuneration” to include retroactive fees). PCMA
suggests North Dakota’s law alters the Part D
reconciliation scheme by “banning retroactive fees.”
See Docket No. 40, p. 57. PCMA argues the
legislation “would nullify part of the standard
concerning what makes up a negotiated price and
would change the calculation of payments made by
CMS to plans during the reconciliation process by
removing retroactive fees from the equation.” See
Docket No. 40, p. 57. The Court finds PCMA’s
argument unpersuasive. The legislation regulates
the imposition of fees levied on pharmacies that are
related to claims for prescription drugs. It does not
overlap with, nor does it alter, the calculations used
in the reconciliation process. PCMA has not pointed
to any federal standard concerning PBMs’ imposition
of fees on pharmacies. The Court finds S.B. 2258’s
provision regulating post point-of-sale fees is not
preempted by Medicare Part D.
PCMA also argues the legislation’s regulation of
copayments is preempted. The legislation provides
the following concerning copayments:
A pharmacy benefits manager or third-party
payer may not charge a patient a copayment
that exceeds the cost of the medication. If a
patient pays a copayment, the dispensing
provider or pharmacy shall retain the
adjudicated cost and the pharmacy benefits
manager or third-party payer may not redact
the adjudicated cost.
Part D sponsor for the provision of the Part D benefit.” See
Docket No. 40, pp. 56-57.

51a
S.B. 2258 § 1(4). PCMA argues this provision
overlaps with federal standards that set copayment
amounts for certain drugs. See Docket No. 33-1, pp.
41-42; see also 42 C.F.R. § 423.104(d)(5)(i). PCMA
suggests that retainment of copayments is “an
entitlement that CMS has granted to plans.” See
Docket No. 33-1, p. 42. The Court disagrees. The
standards PCMA cites may set copayment amounts,
but they do not specify which entity is entitled to
retain copayments as does North Dakota’s law.
PCMA also argues there are federal standards
accounting for “direct and indirect remuneration” to
plans after a prescription drug has been sold, which
may include copayment amounts. See Docket No. 331, p. 42; see also 42 C.F.R. § 423.308. However, these
standards, which account for various fees and
payments, also do not mandate the allocation of
certain payments to certain parties. The Court finds
North Dakota’s regulation of copayments is not
preempted by Medicare Part D.
ii. DISCLOSURE OBLIGATIONS
The
legislation
contains
two
provisions
concerning PBM disclosure obligations. The first
provision requires PBMs to disclose information
about PBM pharmacy networks to pharmacies.
According to North Dakota, this provision was
intended to help pharmacies evaluate the
profitability of PBM contracts by providing
pharmacies with information detailing the number of
patients that would be subject to a PBM contract’s
reimbursement policies. See Docket No. 39-1, p. 10.
The provision states:

52a
Upon request, a pharmacy benefits manager
or third-party payer shall provide a pharmacy
or pharmacist with the processor control
number, bank identification number, and
group number for each pharmacy network
established or administered by a pharmacy
benefits manager to enable the pharmacy to
make an informed contracting decision.
S.B. 2258 § 1(10). The second disclosure provision
obligates PBMs with an ownership interest in a
pharmacy to disclose, to plan sponsors, the difference
between the amount paid to a pharmacy and the
amount charged to the plan sponsor. It states:
If requested by a plan sponsor contracted
payer, a pharmacy benefits manager or thirdparty payer that has an ownership interest,
either directly or through an affiliate or
subsidiary, in a pharmacy shall disclose to the
plan sponsor contracted payer any difference
between the amount paid to a pharmacy and
the amount charged to the plan sponsor
contracted payer.
S.B. 2301 § 1(2).
In support of preemption, PCMA cites various
federal standards discussing PBMs’ disclosure
obligations to beneficiaries, CMS, and plan sponsors.
See Docket No. 33-1, pp. 42-43; see also 42 U.S.C.
§§1395w-104(a)(1)-(2)
(setting
forth
annual
disclosure obligations plan sponsors must provide to
plan enrollees); 42 U.S.C. §§1395w-104(k) (plan
sponsors must ensure pharmacies inform plan
enrollees of “any differential between the price of the
drug to the enrollee and the price of the lowest priced

53a
generic covered part D drug under the plan”); 42
U.S.C. § 1320b-23 (requiring PBMs to disclose
information regarding drug sales and pricing to
CMS); 42 C.F.R. § 423.514(d) (detailing reporting
requirements for pharmacy benefits manager data to
plan sponsors and CMS).
PCMA does not cite any federal standard, and the
Court is not aware of any, that concerns the
disclosure of information by PBMs to pharmacies.
Because CMS has not promulgated standards in this
area, the Court finds S.B. 2258 § 1(10), which
requires the disclosure of PBM pharmacy network
information to pharmacies, is not preempted by
Medicare Part D. However, the Court agrees with
PCMA regarding S.B. 2301’s PBM disclosure
obligations to plan sponsors. Federal standards
specifically require PBMs to provide information to
plan sponsors, including the number of prescriptions
dispensed, the amount of rebates, discounts, or price
concessions the PBM negotiates and passes through
to the plan sponsor, and the difference between the
amount the PBM pays the pharmacy and the plan
sponsor. See 42 C.F.R. § 423.514(d); 42 U.S.C. §
1320b-23. Senate Bill 2301 § 1(2), which requires
certain PBMs to report to plan sponsors “any
difference between the amount paid to a pharmacy
and the amount charged to the plan sponsor”
overlaps with this standard, and thus the Court finds
it is preempted as applied to Medicare Part D plans.3
The Court’s holding does not invalidate the remainder of the
legislation. North Dakota has enacted a broad severability
clause. When a court finds any portion of a law invalid, “such
judgment does not affect, impair, nor invalidate any other
clause, sentence, paragraph, chapter, section or part . . . .”
3

54a
iii. PBM SELF DEALING
The legislation also contains a provision aimed at
potential self-dealing on the part of PBMs that own
pharmacies. It states:
A pharmacy benefits manager or a pharmacy
benefits manager’s affiliates or subsidiaries
may not own or have an ownership interest in
a patient assistance program and a mail order
specialty pharmacy, unless the pharmacy
benefit manager, affiliate, or subsidiary agrees
to not participate in a transaction that
benefits the pharmacy benefits manager,
affiliate, or subsidiary instead of another
person owed a fiduciary duty.
S.B. 2301 § 1(3). In support of preemption, PCMA
cites 42 C.F.R. § 423.501, which defines “related
entity” as any entity that is related to a PDP sponsor
by common ownership or control and performs some
of a plan’s management functions, furnishes services
to a plan enrollee, or leases or sells property to a
plan. See Docket No. 33-1, p. 45. PCMA also points to
a study and CMS manuals and publications that
address potential conflicts of interest in the
dispensing of prescription drugs. See Docket No. 331, pp. 46-48. PCMA argues: “CMS and North Dakota
address the same problem but chose a different
means to protect against it. As such, [S.B. 2301
§ 1(3)] is preempted because CMS and North Dakota
regulate the same conduct.” See Docket No. 40, p. 60.

N.D.C.C. § 1-02-20. The parties do not dispute the validity or
applicability of North Dakota’s severability clause.

55a
However, the manuals, publication, and study
CMS cites are not standards. “[A] standard is a
statutory provision or a regulation promulgated
under [Medicare] and published in the Code of
Federal Regulations.” New York City Health and
Hospitals Corp., 801 F. Supp. 2d at 140 (quoting Med
Card Sys., Inc., 587 F. Supp. 2d at 387); see also
Uhm, 620 F.3d 1148 n. 20. The one standard PCMA
cites simply defines the term “related entity.” See 42
C.F.R. § 423.501. This definitional provision does not
regulate PBM conflicts of interest in any way.
Because the legislation’s provision concerning PBM
self-dealing does not overlap with a Medicare Part D
standard, the Court finds it is not preempted.
III. CONCLUSION
The Court has carefully reviewed the entire
record, the parties’ filings, and the relevant law. For
the reasons set forth above, the Plaintiff’s motion for
summary judgment (Docket No. 33) is GRANTED
IN PART AND DENIED IN PART. The
Defendants’ cross-motion for summary judgment
(Docket No. 38) is also GRANTED IN PART AND
DENIED IN PART.
IT IS SO ORDERED
Dated this 5th day of September, 2018.
/s/ Daniel L. Hovland
x
Daniel L. Hovland, Chief Judge
United States District Court

56a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
PHARMACEUTICAL
CARE MANAGEMENT
ASSOCIATION,

)
)
)
)
Plaintiff,
)
vs.
)
)
MYLYNN TUFTE, in
)
her official capacity as
the State Health Officer )
of North Dakota; MARK )
J. HARDY, in his official )
)
capacity as the
Executive Director of the )
)
North Dakota Board of
)
Pharmacy; FRAN
)
GRONBERG, in her
)
official capacity as the
)
President of the North
)
Dakota Board of
Pharmacy; and WAYNE )
)
STENEHJEM, in his
)
official capacity as the
)
Attorney General of
)
North Dakota,
)
Defendants. )

ORDER DENYING
PLAINTIFF’S
MOTION FOR A
PRELIMINARY
INJUNCTION
Case No.: 1:17-cv-141

Before the Court is the Plaintiff’s “Emergency
Motion for a Temporary Restraining Order and
Preliminary Injunction” filed on July 20, 2017. See
Docket No. 10. In its motion, the Plaintiff requested
the Court temporarily restrain and preliminarily

57a
enjoin Defendants from enforcing North Dakota
Senate Bills 2258 and 2301. On July 27, 2017, the
parties submitted a joint stipulation in which the
Plaintiff withdrew its request for a temporary
restraining order, in order to give the Court
additional time to address the merits of the request
for preliminary injunctive relief. See Docket No. 18.
On July 28, 2017, the Court found as moot the
Plaintiff’s motion for a temporary restraining order.
See Docket No. 19. On August 22, 2017, a hearing
was held regarding the preliminary injunction. See
Docket No. 24. For the reasons set forth below, the
Court denies the Plaintiff’s motion for a preliminary
injunction.
I. BACKGROUND
The Plaintiff, Pharmaceutical Care Management
Association (PCMA), is a national trade association
representing pharmacy benefit managers (PBMs),
with its principal place of business in Washington,
D.C. See Docket No. 1. PBMs are third-party health
plan administrators which manage and administer
prescription drug benefits on behalf of health
insurance plans. Retail pharmacies purchase
prescription
drugs
from
wholesalers
or
manufacturers to fill health plan participants’
prescriptions. When a plan participant (a patient or
consumer) fills a prescription, the pharmacy contacts
the PBM to obtain the participant’s coverage and
copayment information. After the prescription is
filled, the PBM reimburses the pharmacy at a
contractually-agreed upon rate. The PBM then bills
the health plan, which provides the participant’s
insurance, at a rate negotiated between the PBM and

58a
the health plan. This role renders the PBM a thirdparty health plan administrator.
In April 2017, North Dakota State Governor Doug
Burgum signed into law S.B. 2258 and S.B. 2301,
which were to become effective August 1, 2017.1 See
S.B. 2258, 2017 Leg., 65th Sess. (ND 2017); S.B.
2301, 2017 Leg., 65th Sess. (ND 2017). Among other
things, these laws will regulate how PBMs categorize
prescription drugs and also require PBMs to make
certain cost disclosures to network pharmacies and
plan participants. PCMA highlights the following
provisions2 as concerning:


S.B. 2258 § 1(2) prohibits PBMs and
third-party payers from charging pharmacies certain fees, including fees that
are imposed after the point of sale, not
reported on the remittance advice for a
claim, or are not apparent at the time of
claim processing.



S.B. 2258 § 1(3) limits the fees PBMs
and third-party payers may impose

On August 1, 2017, S.B. 2258 and S.B. 2301 became law as
applied to non-ERISA and non-Medicare Part D health plans.
See N.D.C.C. §§ 19-02.1-14.2 and 19-02.1-16.1. Prior to August
1, 2017, the parties stipulated the law would only go into effect
as to non-ERISA and non-Medicare Part D plans, pending the
resolution of this matter. See Docket No. 18. For the sake of
clarity, the Court will continue to refer to the legislation at
issue in this case as S.B. 2258 and S.B. 2301, as opposed to
what are now N.D.C.C. §§ 19-02.1-14.2 and 19-02.1-16.1,
respectively.
1

These provisions are excerpted from Plaintiff’s brief and are
not direct quotes of either bill’s language, unless indicated.
They are Plaintiff’s own summaries of the State bills’ effects.
2

59a
based on pharmacy performance standards.


S.B. 2258 § 1(4) bars PBMs and thirdparty payers from “redact[ing] the adjudicated cost,” or the amount the PBM or
third-party payer reimburses a pharmacy for a prescription.



S.B. 2258 § 1(6) allows pharmacists or
pharmacies belonging to a pharmacy
service administration organization to
receive a copy of contracts the pharmacy
service administration organization entered into with a pharmacy benefits
manager or third-party payer on their
behalf.



S.B. 2258 § 1(7) allows pharmacies to
disclose “relevant” information to patients, including reimbursement information, and prohibits contracts between
PBMs and pharmacies that prevent
such disclosure.



S.B. 2258 § 1(8) authorizes pharmacies
to “mail or deliver drugs to a patient as
an ancillary service of a pharmacy.”



S.B. 2258 § 1(9) prohibits contracts
which provide that a pharmacy may not
charge a shipping and handling fee to a
patient.



S.B. 2258 § 1(10) prohibits PBM or
third-party payers from imposing accreditation and recertification standards

60a
beyond preexisting federal and state licensing requirements.


S.B. 2301 § 1(2) obligates PBMs and
third-party payers having ownership
interest in a pharmacy to disclose the
difference between the amount paid to
the pharmacy and the amount charged
to the plan sponsor on request.



S.B. 2301 § 1(3) prohibits PBMs from
having an ownership interest in patient
assistance programs or mail-order specialty pharmacy unless the PBM agrees
“not to participate in a transaction that
benefits the PBM instead of another
person owed a fiduciary duty.”



S.B. 2301 § 1(5) authorizes pharmacies
to dispense “any and all drugs allowed”
under its license.



S.B. 2301 § 1(11) prohibits a PBM or
third-party payer from imposing accreditation standards beyond preexisting
federal and state licensing requirements.

See Docket No. 1, pp. 6-8; see also S.B. 2258 and
2301.
On July 11, 2017, PCMA filed a complaint against
State Health Officer Mylynn Tufte; Executive
Director of the North Dakota Board of Pharmacy,
Mark J. Hardy; President of the North Dakota Board
of Pharmacy, Fran Gronberg; and Attorney General
Wayne Stenehjem. See Docket No. 1. PCMA argues
the new laws, which were scheduled to go into effect

61a
on August 1, 2017, place restrictions and
requirements on PBMs that impermissibly reference
or are connected with health plans under the
Employee Retirement Income Security Act of 1974
(“ERISA”), 29 U.S.C. § 1001 et seq., and Medicare
Prescription Drug Improvement and Modernization
Act of 2003 (“Medicare Part D”), 42 U.S.C. § 1395w101 et seq. As a result, PCMA seeks this Court’s
declaration that the North Dakota state laws are
expressly preempted by federal legislation. The
parties stipulated not to effectuate S.B. 2258 and
S.B. 2301 as to ERISA and Medicare Part D plans,
pending the resolution of this matter. See Docket No.
19.
II. STANDARD OF REVIEW
PCMA seeks to obtain a preliminary injunction
pursuant to Rule 65(b) of the Federal Rules of Civil
Procedure. Rule 65(b) directs the court to look to the
specific facts shown by an affidavit to determine
whether immediate and irreparable injury, loss, or
damage will result to the applicant. It is wellestablished in the Eighth Circuit Court of Appeals
that a court is required to consider the factors set
forth in Dataphase Systems, Inc. v. C L Systems,
Inc., 640 F.2d 109, 114 (8th Cir. 1981), in
determining whether a preliminary injunction should
be granted. The Dataphase factors include: “(1) the
threat of irreparable harm to the movant; (2) the
state of balance between this harm and injury that
granting the injunction will inflict on other parties;
(3) the probability the movant will succeed on the
merits; and (4) the public interest.” Id.

62a
Preliminary injunctive relief is an “extraordinary
and drastic remedy.” Munaf v. Geren, 553 U.S. 674,
689-90 (2008). Accordingly, the party seeking such
relief bears the burden of establishing its propriety
with “clear proof.” Frejlach v. Butler, 573 F.2d 1026,
1027 (8th Cir. 1978). It is well-established that the
movant has the burden of establishing the necessity
of a preliminary injunction. Baker Elec. Coop., Inc. v.
Chaske, 28 F.3d 1466, 1472 (8th Cir. 1994). “No
single factor in itself is dispositive; in each case all of
the factors must be considered to determine whether
on balance they weigh towards granting the
injunction.” Id. at 1472.
III. LEGAL DISCUSSION
PCMA argues S.B. 2258 and S.B. 2301 are
preempted by ERISA and Medicare Part D, as those
federal laws each contain provisions providing that
any state laws relating to them will be superseded by
each of them respectively. PCMA argues S.B. 2258
and S.B. 2301 impermissibly regulate ERISA and
Medicare Part D health plans by regulating thirdparty payers and PBMs. According to PCMA, North
Dakota’s statutory definitions of third-party payers
and PBMs are broad enough to encompass ERISA
and Medicare Part D health plans. Therefore, PCMA
argues, any laws regulating third-party payers and
PBMs, as they are statutorily defined, necessarily
include ERISA and Medicare Part D health plans,
and are therefore preempted by federal law.
A. ERISA PREEMPTION
ERISA comprehensively regulates, among other
things, employee welfare benefit plans that “though

63a
the purchase of insurance or otherwise,” provide
medical, surgical, or hospital care, or benefits in the
event of sickness, accident, disability, or death. 29
U.S.C. § 1001(b). ERISA was intended to:
protect . . . participants in employee benefit
plans and their beneficiaries, by requiring the
disclosure and reporting to participants and
beneficiaries
of
financial
and
other
information
with
respect
thereto,
by
establishing
standards
of
conduct,
responsibility, and obligation for fiduciaries of
employee benefit plans, and by providing for
appropriate remedies, sanctions, and ready
access to the Federal courts.
29 U.S.C. § 1001(b).
“To meet the goals of a comprehensive and
pervasive Federal interest and the interests of
uniformity with respect to interstate [health] plans,
Congress included an express preemption clause in
ERISA for the displacement of State action in the
field of private employee benefit programs.” Minn.
Chapter of Associated Builders & Contractors, Inc. v.
Minn. Dep’t of Pub. Safety, 267 F.3d 807, 810 (8th
Cir. 2011). The scope of ERISA’s preemption has left
courts “deeply troubled.” Prudential Ins. Co. v. Nat’l
Park Medical Ctr., 154 F.3d 812, 815 (8th Cir. 1998).
The Supreme Court has described the preemption
clause as having “a broad scope, and an expansive
sweep,” and being “conspicuous for its breadth.”
California Division of Labor Standards Enforcement
v. Dillingham Constr., N.A., Inc., 519 U.S. 316, 324
(1997).

64a
Courts have struggled to reconcile the sweeping
language of ERISA’s preemption clause with the
assumption that Congress does not intend to bar
state action in fields of traditional state regulation or
historic police powers. See New York State
Conference of Blue Cross & Blue Shield Plans v.
Travelers Ins. Co., 514 U.S. 645, 654-55 (1995) (“we
have never assumed lightly that Congress has
derogated state regulation, but instead have
addressed claims of pre-emption with the starting
presumption that Congress does not intend to
supplant state law.”). The Supreme Court has
cautioned courts interpreting ERISA’s preemption
clause that it must not be read to “extend to the
furthest stretch of its indeterminacy.’” De Buono v.
NYSA-ILA Medical and Clinical Services Fund, 520
U.S. 806, 813 (1997).
The preemption clause specifically provides that
ERISA “shall supersede any and all State laws
insofar as they may now or hereafter relate to any
employee benefit plan[.]” 29 U.S.C. § 1144(a)
(emphasis added). “Yet, Congress did not define what
it meant by state laws that ‘relate to’ an ERISA
benefit plan anywhere in the statute.” Prudential,
154 F.3d 812, 819 (8th Cir. 1998). The Supreme
Court has offered some guidance on the scope of
ERISA’s preemption, by formulating a two-part test
to determine whether a state law “relates to” an
employee benefit plan covered by ERISA. It is now
generally understood and accepted that “[a state] law
relates to a covered employee benefit plan for
purposes of § 514(a) if it [1] has a connection with or
[2] reference to such a plan.” Shaw v. Delta Air
Lines, Inc., 463 U.S. 85, 97 (1983).

65a
1. Likelihood of Success on the Merits
The Eighth Circuit Court of Appeals has held that
the likelihood of success on the merits is the “most
significant” of the four factors to be considered by the
district court in considering preliminary injunctive
relief. S & M Constructors, Inc. v. Foley Co., 959 F.2d
97, 98 (8th Cir. 1992). When evaluating a movant’s
likelihood of success on the merits, the court should
“flexibly weigh the case’s particular circumstances to
determine ‘whether the balance of equities so favors
the movant that justice requires the court to
intervene to preserve the status quo until the merits
are determined.’” Calvin Klein Cosmetics Corp. v.
Lenox Labs., Inc., 815 F.2d 500, 503 (8th Cir. 1987).
At this preliminary stage, the Court need not decide
whether the party seeking the preliminary injunction
will ultimately prevail. PCTV Gold, Inc. v. SpeedNet,
LLC, 508 F.3d 1137, 1143 (8th Cir. 2007).
PCMA asserts it is likely to prevail on its claim
against the Defendants because controlling
precedent in the Eighth Circuit requires finding S.B.
2258 and 2301 are expressly preempted by ERISA.
See Docket No. 10-1, p. 7. PCMA points specifically
to Pharm. Care Mgmt. Ass’n v. Gerhart, 852 F.3d
722 (8th Cir. 2017). In Gerhart, PCMA sued the state
of Iowa, seeking a declaration that an Iowa state law
regulating how PBMs established generic drug
pricing was preempted by ERISA. Id. at 726. The
district court in Gerhart found the statute did not
have an impermissible connection with ERISA
because the PBMs retained “sufficient choice and
control.” Id. at 727. The Eighth Circuit Court of
Appeals disagreed, holding that the Iowa statute
contained both an impermissible “reference to” and

66a
“connection with” ERISA. Id. at 729-30. The case was
remanded, directing the district court to enter
judgment in favor of PCMA on the issue of express
preemption. Id. at 732. In response the defendants
argue that Gerhart is of no help in this case because
the Iowa and North Dakota statutes are vastly
different and the portions of Gerhart that PCMA
relies on amount to mere commentary with no legal
significance.3
Preemption claims turn on congressional intent.
Cipollone v. Liggett Group, Inc., 505 U.S. 504, 515-19
(1992). “To discern Congress’ intent we examine the
explicit statutory language and the structure and
purpose of the statute.” Ingersoll-Rand Co. v.
McClendon, 498 U.S. 133, 138 (1990).
[When] Congress has expressly included
a broadly worded pre-emption provision
in a comprehensive statute such as
ERISA,
our
task
of
discerning
congressional intent is considerably
simplified. In § 514(a) of ERISA, as set forth
in 29 U.S.C. § 1144(a), Congress provided:
Except as provided in subsection (b) of
this section, the provisions

The Eighth Circuit Court of Appeals held that the Iowa law at
issue in Gerhart was preempted by ERISA because it contained
an explicit reference to ERISA. 852 F.3d at 729 (8th Cir. 2017).
The Eighth Circuit went on to discuss possible implicit
references. Defendants argue that S.B. 2258 and 2301 differ
from the Iowa law because they contain no explicit references to
ERISA and they further argue that any discussion in Gerhart
regarding implicit references is only legal dicta and not binding
precedent.
3

67a
of this subchapter and subchapter III of
this chapter shall supersede any and
all State laws insofar as they may
now or hereafter relate to any
employee benefit plan described in
section 1003(a) of this title and not
exempt under section 1003(b) of this
title.
Ingersoll-Rand, 498 U.S. at 138 (emphasis added).
Courts have determined ERISA’s preemption clause
is “deliberately expansive,” and “designed to
establish pension plan regulation as exclusively a
federal concern.” Id. With the presumption that
Congress intended preemption to be applied broadly,
the Court turns to whether S.B. 2258 and S.B. 2301
relate to ERISA. The laws will be found to relate to
ERISA if they have either a reference to or connection
with ERISA.
a. Whether there is a “reference to” ERISA in
S.B. 2258 and S.B. 2301
Under the “reference to” inquiry, the Supreme
Court has preempted state laws that (1) imposed
requirements by reference to ERISA covered
programs4; (2) specifically exempted ERISA plans
from an otherwise generally applicable statute; and
(3) premise a cause of action on the existence of an
ERISA plan. Prudential, 154 F.3d 812, 822 (8th Cir.
1998) (internal citations and quotations omitted). An
The obvious irony here is that in order to determine if there is
a “reference to” ERISA, the reviewing court first considers
whether the state law imposes requirements by “reference to”
ERISA . . . .
4

68a
impermissible “reference to” ERISA plans will be
found when a state law “acts immediately and
exclusively upon ERISA plans . . . or where the
existence of ERISA plans is essential to the law’s
operation[.]” Gobeille v. Liberty Mut. Ins. Co., 136
S.Ct. 936, 943 (2016) (internal citation and quotation
marks omitted).
The parties seem to agree and the Court finds
that neither S.B. 2258 nor S.B. 2301 contain an
explicit reference to ERISA. Nowhere in either bill’s
language is ERISA explicitly mentioned, discussed,
defined, or excluded. Therefore, the Court finds no
explicit “reference to” ERISA. PCMA argues,
however, that both S.B. 2258 and S.B. 2301 contain
implicit references to ERISA because, within each
bill, PBMs, third party payers, and plan sponsors are
defined broadly enough to implicate ERISA health
plans.
Both S.B. 2258 and S.B. 2301 explicitly provide
that “pharmacy benefit manager,” as used within
each bill, has the same definition as in N.D.C.C. § 1903.6-01. See S.B. 2258 § 1 (1)(a) and S.B. 2301 § 1
(1)(a); see also N.D.C.C. §§ 19-02.1-14.2(1)(d) and 1902.1-16.1(1)(a). “Pharmacy benefits manager” is
defined as:
“Pharmacy benefits manger” means a person
that performs pharmacy benefits management
and includes any other person acting for such
person under a contractual or employment
relationship in the performance of pharmacy
benefits management for a managed care
company, nonprofit hospital or medical
service organization, insurance company,

69a
third-party payer, or health program
administered by a state agency.
See N.D.C.C. § 19-03.6-01(4) (emphasis added).
PCMA argues S.B. 2258 and S.B. 2301 attempt to
regulate PBMs, and some of these PBMs provide
services for ERISA health plans. Therefore, PCMA
argues, the bills both implicitly reference ERISA.
However, the legislation defines PBMs as a “person”
who has a contractual relationship with a “managed
care company, nonprofit hospital or medical service
organization, insurance company, third-party payer,
or health program administered by a state agency.”
N.D.C.C. § 19-03.6-01(4). For purposes of S.B. 2258
and S.B. 2301, it appears that a PBM is a distinct
“person,” entering a contractual relationship with
one of the listed entities. The PBM is a separate
entity distinguishable from any health benefit plan,
let alone an ERISA-covered employee health benefit
plan.
It is certainly conceivable that a “pharmacy
benefits manager” could enter into a contractual
relationship with an employer sponsored health
benefit plan, and that such an employer sponsored
health benefit plan would be subject to ERISA.
However, that is merely one outcome of many and
not one that is clearly expressed in the statutory
language.5 The standard set by the Supreme Court
In contrast, the Eighth Circuit Court of Appeals in Gerhart
found that the Iowa law at issue made implicit reference to
ERISA through the regulation of PBMs who administer benefits
for “covered entities,” which, by definition, included “health
benefit plans and employers, labor unions, or other groups “that
provide health care coverage.” See Gerhart 852 F.3d 722, 72930. (emphasis added).
5

70a
does not require preempting any laws that could be
read to include ERISA health plans. Rather, the
standard set by the Supreme Court requires finding
an impermissible “reference to” ERISA plans when a
state law “acts immediately and exclusively upon
ERISA plans . . . or where the existence of ERISA
plans is essential to the law’s operation[.]” Gobeille,
136 S.Ct. at 943.
Through S.B. 2258 and S.B. 2301, North Dakota
seeks to regulate persons or entities who
independently serve as third parties in a relationship
between insurance plans and plan participants. The
insurance plans that they contract with may or may
not be ERISA plans. North Dakota’s regulation of
these third party entities has little or nothing to do
with who is the insurance plan carrier. ERISA
regulates employer sponsored health benefit plans. It
does not preempt a state from regulating
independent
entities
entering
contractual
relationships with insurance plans, whether they be
employer sponsored or not. An independent entity
choosing to do business with an employee health
benefit plan is not given a shield from state and local
regulations; to find that ERISA’s preemption clause
did as much would be to “extend to the furthest
stretch of its indeterminacy.” De Buono, 520 U.S. at
813. Therefore, in this case the Court finds no
implicit reference to ERISA plans by way of
regulating pharmacy benefit managers.
Similarly, S.B. 2258 and S.B. 2301 explicitly
provide that “third party payer,” as used within each
bill, has the same definition as in N.D.C.C. § 19-03.601. See S.B. 2258 § 1 (1)(c) and S.B. 2301 §1 (1)(d);
see also N.D.C.C. § 19-02.1-16.1(1)(c). “Third party

71a
payer” is defined as “an organization other than the
patient or health care provider involved in the
financing of personal health services.” N.D.C.C. § 1903.6-01(6).
PCMA
argues
this is another
impermissible, implicit reference to ERISA. The
Court is unconvinced. While the statutory language
could be read to include the employer sponsored
health benefit plans subject to ERISA, nowhere in
either bill does it say as much. The definition clearly
applies to a broad range of entities that have no
relation to ERISA or employer sponsored health
plans. As described above, to apply the preemption
clause under this circumstance would result in
“uncritical literalism,” for if “‘relate to’ were taken to
extend to the furthest stretch of its indeterminacy,
then for all practical purposes pre-emption would
never run its course, for really, universally, relations
stop nowhere.” Travelers, 514 U.S. at 655.
S.B. 2258 and S.B. 2301 also explicitly provide
that “plan sponsors,” as used within each bill, have
the same definition as in N.D.C.C. § 19-03.6-01. See
S.B. 2258 § 1(1)(b) and S.B. 2301 § 1(1)(b); see also
N.D.C.C. § 19-02.1-16.1(1)(b). PCMA points to the
definition of a “plan sponsor” as the mirror image of
ERISA’s definition of “plan sponsor,” and argues this
constitutes an implicit and impermissible reference
to health care benefit plans covered by ERISA. “Plan
sponsors” are defined as “the employer in the case of
an employee benefit plan established or maintained
by a single employer, or the employee organization in
the case of a plan established or maintained by an
employee organization.” See N.D.C.C. § 19-03.601(5).

72a
Like the definitions of “pharmacy benefits
manager” and “third party payer,” the definition of
“plan sponsors” is referring to a person or entity
separate and removed from the health plan itself.
Unlike the definitions of “pharmacy benefits
manager” and “third party payer,” however, the
definition of “plan sponsor,” explicitly references an
employer who provides an employee benefit plan and
makes mention of an employee benefit plan. The
Court finds PCMA’s argument that the statutory
definition of “plan sponsor” makes “reference to”
ERISA to be its most convincing argument. In order
to fully explore the effect of “plan sponsor,” the Court
will review the relevant analysis.
“A state law has a prohibited “reference to”
ERISA or ERISA plans when that law (1) impos[es]
requirements by reference to [ERISA] covered
programs, (2) specifically exempt[s] ERISA plans
from an otherwise generally applicable [statute], or
(3) premises a cause of action on the existence of an
ERISA plan.” Prudential, 154 F.3d at 822 (internal
citations and quotations omitted). “[W]here a State’s
law acts immediately and exclusively upon ERISA
plans . . . or where the existence of ERISA plans is
essential to the law’s operation . . . that ‘reference’
will result in pre-emption.” Gobeille, 136 S.Ct. at
943.
Applying those three factors to this case, the
Court finds that S.B. 2258 and S.B. 2301’s definition
of “plan sponsor,” which includes an employer who
provides an employee benefit plan, is not an implicit
reference to ERISA. First, neither S.B. 2258 and
2301 “impose requirements by reference to ERISA
covered programs.” See Dillingham, 519 U.S. at 324.

73a
S.B. 2258 and S.B. 2301 undoubtedly “impose
requirements,” but not “by reference to ERISA
covered programs.” Id. Both S.B. 2258 and 2301
make reference to a “plan sponsor.” A “plan sponsor,”
by definition, is “the employer in the case of an
employee benefit plan . . . or the employee
organization in the case of a plan established . . . by
an employee organization . . . .” See N.D.C.C. § 1903.6-01(5) (emphasis added). The employer and the
employee organization are both distinct and separate
entities, distinguishable from an employee benefit
plan, itself.
“Plan sponsors” are referenced in one section of
each bill:
S.B. 2258: “A pharmacy benefits manager or
third-party payer may not prohibit
a pharmacist or pharmacy from
participating in a class action
lawsuit.
A
pharmacy
or
pharmacist may disclose to the
plan sponsor or to the patient
information
regarding
the
adjudicated
reimbursement
paid to the pharmacy which is
compliant under the federal Health
Insurance
Portability
and
Accountability Act of 1996 . . . .”
S.B. 2301: “If requested by a plan sponsor
contracted payer, a pharmacy
benefits manager or thirdparty payer that has an
ownership interest, either directly
or
through
an
affiliate
or
subsidiary, in a pharmacy shall

74a
disclose to the plan sponsor
contracted
payer
any
difference between the amount
paid to a pharmacy and the
amount charged to the plan
sponsor contracted payer.”
See S.B. 2258(1)(5) and S.B. 2301(1)(2) (emphasis
added).
The Court finds that S.B. 2258 does not impose
requirements by making reference to ERISA covered
programs. Looking to the statutory language, which
is clear and unambiguous on its face, S.B. 2258
permits pharmacies and pharmacists to disclose
information to a plan sponsor. See S.B. 2258 § 1(5).
While, S.B. 2258 allows pharmacies and pharmacists
to disclose information, it does not require them to,
so it cannot be said that S.B. 2258 imposes
requirements by making reference to an ERISA
program. Even if the statutory language required,
rather than permitted, pharmacies and pharmacists
to disclose information to a plan sponsor, it would not
change the outcome. In that instance, S.B. 2258
would impose a requirement on pharmacies and
pharmacists, but not an ERISA covered program.
In contrast, S.B. 2301 requires, rather than
permits, PBMs and third party payers to disclose
information to plan sponsors. While S.B. 2301
imposes a requirement, the Court finds it does not do
so by reference to an ERISA-covered program.
Instead, S.B. 2301 imposes a requirement on PBMs
and third party payers by reference to plan sponsors.
Plan sponsors, by definition, refer to an employer or

75a
an employee organization,6 both of which are
separate and distinct entities and distinguishable
from an employee benefit plan. Section 514(a) of 29
U.S.C. § 1144(a) contains the preemption clause
which states that ERISA “shall supersede any and
all State laws insofar as they may now or hereafter
relate to any employee benefit plan . . . .” but not
insofar as they relate to an employer.
The second consideration for a court deciding
whether a state law has a “reference to” ERISA is
whether the laws specifically exempt ERISA plans
from an otherwise generally applicable statute. See
Mackey v. Lanier Collection Agency & Service, Inc.,
486 U.S. 825, 830 (1988). The Court finds that
neither S.B. 2258 nor S.B. 2301 specifically exempt
ERISA plans, as no such provision exists in either
bill. The third consideration, whether the law
“premises a cause of action on the existence of an
ERISA plan,” is similarly irrelevant. See IngersollRand, 498 U.S. at 140. The Court finds that neither
S.B. 2258 nor S.B. 2301 premises a cause of action on
the existence of an ERISA plan, as no such provision
exists in either bill.
Accordingly, the Court finds that neither S.B.
2258 nor S.B. 2301 contain an implicit reference to
ERISA. Significantly, neither of the bills act
“immediately and exclusively upon ERISA plans.”
See N.D.C.C. 19-03.6-01(5) (“‘Plan sponsor’ means the
employer in the case of an employee benefit plan . . . or the
employee organization in the case of a plan established . . . by
an employee organization . . . .” ). To be sure, the plan sponsor
(i.e., employer or employee organization) is associated with an
employee benefit plan; plan sponsors are not, however,
synonymous with the plan itself.
6

76a
Dillingham, 519 U.S. at 325. Neither of the bills were
“specifically designed to affect employee benefit
plans,” nor can it be said that “the existence of
ERISA plans is essential to the law’s operation.” See
Ingersoll-Rand, 498 U.S. at 139; Dillingham, 519
U.S. at 325; see also Travelers, 514 U.S. at 656
(finding no preemption involving state-mandated
surcharges imposed on parties and HMOs because
the charges applied “regardless of whether the
commercial coverage or membership, respectively,
[was] ultimately secured by an ERISA plan.).
Instead, both of the bills “function[ ] irrespective of
. . . the existence of an ERISA plan.” Ingersoll-Rand,
498 U.S. 133, 139 (1990).
“In the end, what saves the [state law] from
ERISA preemption is that it does not have anything
to do with employee benefit plans in particular. It is
merely one of many state laws that regulates one of
many products that an employee benefit plan might
choose to buy. The [state law] regulates health
insurance in a broad and neutral way . . . The mere
fact that many ERISA plans choose to buy health
insurance for their plan members does not cause a
regulation of health insurance automatically to
‘relate to’ an employee benefit plan . . . .” Washington
Physicians Service Ass’n v. Gregoire, 147 F.3d
1039,1046-47 (9th Cir. 1998). In conclusion, the
Court finds that neither S.B. 2258 nor S.B. 2301
contain either an explicit or implicit “reference to”
ERISA.

77a
b. Whether S.B. 2258 and S.B. 2301 have a
“connection with” ERISA
Because the Court finds that neither bill makes a
“reference to” ERISA, the Court continues its
preemption analysis, under the “connection with”
prong. A state law has an impermissible “connection
with” ERISA plans when it “governs . . . a central
matter of plan administration” or “interferes with
nationally uniform plan administration.” Gobeille,
136 S.Ct. at 943. The Court finds that neither S.B.
2258 nor S.B. 2301 have such a connection with
ERISA.
First, neither S.B. 2258 nor S.B. 2301 govern “a
central matter of plan administration.” Gobeille, 136
S.Ct. at 943. “Obligations undertaken with plan
administration include ‘determining the eligibility of
claimants, calculating benefit levels, making
disbursements, monitoring the availability of funds
for benefit payments, and keeping appropriate
records in order to comply with applicable reporting
requirements.’” Gerhart, 852 F.3d at 730 (quoting
Fort Halifax Packing Co. Inc., v. Coyne, 482 U.S. 1, 9
(1987)). None of these obligations are at issue here
with either S.B. 2258 or S.B. 2301.
Neither S.B. 2258 nor S.B. 2301 contain any
provisions discussing or addressing claimant
eligibility determinations, the monitoring of funds for
benefit payments, or the keeping of appropriate
records for reporting requirements. If either bill is
disguising some serious consequence in any of these
matters, PCMA has not demonstrated it. PCMA does
argue that the bills’ provisions relate to calculations
of benefit levels and making of disbursements. Some

78a
of the provisions in the bills which PCMA points to
for support include those preventing PBMs from
charging pharmacies fees imposed after the point of
sale; authorizing pharmacies to mail or deliver drugs
to patients; requiring that PBMs allow pharmacies to
charge shipping and handling fees; authorizing
pharmacies to dispense any drugs allowed by their
licensure; and barring PBMs from providing
specialty drug benefits through mail-order specialty
pharmacies in which the PBM owns an interest. See
Docket No. 10-1, pp. 11-12.
The Defendants respond that not all state laws
related to health care can constitute laws governing
central matters of plan administration. If that were
the case, the roles the state plays in which
physicians to license or which controlled substances
to restrict could be said to affect how a health plan is
administered because they ultimately impact the
plan participants’ benefit levels, prescription drug
disbursements, and overall care. The Defendants
point to cases in which the Supreme Court held that
when a plan (or its agent) enters the marketplace for
goods or services, the state may regulate those
transactions without running afoul of ERISA. See De
Buono, 520 U.S. at 8167; Dillingham, 519 U.S. 316,
329 (1997)8; Travelers, 514 U.S. 645, 649 (1995)9.
ERISA’s preemption clause did not preclude New York from
imposing a gross receipts tax on ERISA funded medical centers.
See De Buono, 520 U.S. 806 (1997)
7

California wage law did not “relate to” employee benefit plans
and thus is not preempted by ERISA. See Dillingham, 519 U.S.
316 (1997).
8

New York law requiring hospitals to collect surcharges from
patients covered by a commercial insurer but not by Blue
9

79a
Otherwise, ERISA would preempt everything from
general medical practice standards to state wage
laws, because all regulations at the state level would
“invariably affect the cost and price of services”
ultimately paid for by ERISA plans.
The Court finds no provisions in either S.B. 2258
or S.B. 2301 governing central matters of plan
administration. The bills at issue permit pharmacies
to dispense prescription drugs the State has already
licensed them to dispense.10 The bills provide for
greater disclosure of third party payer’s and PBMs’
prescription drug pricing. The bills also limit the
requirements and fees a third party payer or PBM
can place on a pharmacy. The majority of provisions
in both S.B. 2258 and S.B. 2301 relate to
communication issues between pharmacies and
PBMs and, as such, do not govern central matters of
any health plan’s plan administration.
Because neither S.B. 2258 nor S.B. 2301 “govern
. . . a central matter of plan administration,” the
Court finds they do not “interfere[] with nationally
uniform plan administration.” PCMA argues that
these bills will impose a variety of burdens and
expenses upon its members that will interfere with
the “benefit structures” selected by ERISA benefit
Cross/Blue Shield plan did not “relate to” employee benefit
plans and are not preempted by ERISA. See Travelers, 514 U.S.
645 (1995).
Currently, third party payers and PBMs create a list of what
they have determined to be “specialty drugs”. Third party
payers and PBMs then restrict pharmacies from dispensing any
prescription drugs on their “specialty drug” list. Plan
participants are then directed to buy the “specialty drug”
directly from the third party payer or PBM.
10

80a
plans and administered by them. But, in the same
breath, PCMA admits S.B. 2258 and S.B. 2301 can go
into effect as to non-ERISA and non-Medicare Part D
health plans. PCMA, is a national trade association
representing multiple PBMs, some of whom provide
services for health plans covered by ERISA and some
of whom provide services for non-ERISA health
plans. PCMA cannot claim in good faith that S.B.
2258 or S.B. 2301 interferes with nationally uniform
plan administration, while conceding the bills may
ultimately take effect as to other health plans.
PCMA’s argument is too abstract. “If ERISA were
concerned with any state action – such as medicalcare quality standards or hospital workplace
regulations – that increased costs of providing
certain benefits, and thereby potentially affected the
choices made by ERISA plans, [the Court] could
scarcely see the end of ERISA’s preemptive reach,
and the words ‘relate to’ would limit nothing.”
Dillingham, 519 U.S. at 329. PCMA fails to explain
in any detail how these bills, which essentially (1)
require third party payers and PBMs to answer
questions about payment determination, when
asked; and (2) permit pharmacies to offer the same
services as third party payers and PBMs, really
affects nationally uniform plan administration.
Accordingly, the Court finds S.B. 2258 and S.B. 2301
do not interfere with nationally uniform plan
administration, the bills have no “connection with”
ERISA, and the bills are not preempted by ERISA.
c. ERISA’s Savings Clause
Neither party in this case argues the applicability
of ERISA’s so-called “savings” clause. “While § 514(a)

81a
of ERISA broadly pre-empts state laws that relate to
an employee benefit plan, that pre-emption is
substantially qualified by an ‘insurance savings
clause.’” Metropolitan Life Ins. Co. v. Massachusetts,
471 U.S. 724, 733 (1985). “The insurance saving
clause preserves any state law ‘which regulates
insurance, banking, or securities.’” Id. at 739-40.
While neither party has raised this argument, the
Court makes the alternative finding that, even if S.B.
2258 and S.B. 2301 were preempted by ERISA, they
would escape the effects of that preemption by falling
within ERISA’s saving clause.
In determining the scope of the savings clause,
the Court begins by taking a “common-sense” view of
the question of whether the state laws in question
“regulate insurance.” Metropolitan Life, 471 U.S. at
739-40. To determine whether a particular practice
falls within the “business of insurance,” the Supreme
Court used three criteria from the McCarran
Ferguson Act:
[F]irst, whether the practice has the effect of
transferring or spreading a policyholder’s risk;
second, whether the practice is an integral
part of the policy relationship between the
insurer and the insured; and third, whether
the practice is limited to entities within the
insurance industry.”
Id. at 743.
The Supreme Court noted that the focus of the
statutory term under the McCarran-Ferguson Act
was “the relationship between the insurance
company and the policyholder.” Metropolitan Life,
471 U.S. at 744. “A common-sense view of the word

82a
‘regulates’ would lead to the conclusion that in order
to regulate insurance, a law must not just have an
impact on the insurance industry, but must be
specifically directed toward that industry.” Pilot Life
Ins. Co. v. Dedeaux, 481 U.S. 41, 50-51 (1987)
(Although the state common law did concern “the
policy relationship between the insurer and the
insured,” the Court found that “[t]he connection to
the insurer-insured relationship is attenuated at
best,” because it did not “define the terms of the
relationship between the insurer and the insured.”).
Therefore, the North Dakota state laws will be
found to “regulate insurance” if (1) they are directed
specifically toward the insurance industry, and (2)
they apply to the “business of insurance” within the
meaning of the McCarran-Ferguson Act. See 15
U.S.C. §§ 1011-1015. Pilot Life Ins., 481 U.S. at 48.
The laws apply to the business of insurance under
the McCarran-Ferguson Act if they (1) have the
effect of transferring or spreading the policyholder’s
risk; (2) are an integral part of the policy relationship
between the insurer and the insured; and (3) are
limited to entities within the insurance industry.
Metropolitan Life, 471 U.S. at 743.
The Court concludes that even if S.B. 2258 and
S.B. 2301 were found to “relate to” ERISA, they
would be saved from preemption by the ERISA
savings clause. First, both bills “regulate insurance”
under a common-sense approach,” because they are
laws “specifically directly toward that industry.”
Pilot Life Ins. Co., 481 U.S. at 50. Both S.B. 2258 and
S.B. 2301 seek to regulate PBMs and third party
payers, entities that are engaged in the business of
health insurance. PBMs in North Dakota are

83a
regulated by the State’s insurance department. See
Hearing on S.B. 2258 Before the H. Indus. Bus. &
Labor Comm., 65th Leg. Assemb., Reg. Sess. (N.D.
2017) (statement of Mark Hardy, PharmD ExecutiveDirector of the ND State Board of Pharmacy). It was
the intent of the North Dakota Legislature to impose
regulations on PBMs and third party payers that
prevent them from restricting local North Dakota
pharmacies from dispensing the drugs they are
licensed to dispense, by placing these drugs on
“specialty drug” lists.11
Further, the North Dakota laws satisfy the
McCarran-Ferguson factors. First, they have the
effect of transferring or spreading the policyholder’s
risk. See Gregoire, 147 F.3d at 1046-47 (concluding
the Washington act did transfer or spread the
policyholder’s risk by mandating coverage of
additional treatments or conditions). It is clear the
bills confer a benefit on insureds. By allowing
pharmacists and pharmacies to resume a greater role
in the dispensing of prescription drugs, including the
mailing and shipping of prescription drugs, S.B. 2258
and S.B. 2301 essentially mandate greater coverage
and treatment of conditions for the policyholder,
which has the effect of spreading the policyholder’s
risk. See Gregoire, 147 F.3d at 1046 (“It is irrelevant
that the Act accomplishes its risk-spreading function
in an unusual way. Risk-spreading is a concept that
involves more than the mere selection of certain
medical conditions for coverage. The degree of riskspreading between the insured and the carrier also
See N.D. Leg. Assemb., Bill Videos for S.B. 2301,
http://www.legisl.nd.gov/assembly,652017/billvideo/bv2301.html.
11

84a
depends on what kinds of treatments the policy
agrees to pay for, what kinds of deductibles it will
charge, and whether there will be a cap on overall
expenses.”)
Second, the North Dakota bills are an integral
part of the policy relationship between the insurer
and the insured. Metropolitan Life, 471 U.S. at 743.
The North Dakota laws have a “connection to the
insurer-insured relationship” because they “define
the terms of the relationship between the insurer
and the insured,” Pilot Life, 481 U.S. at 50-51. In
Gregoire, the Eighth Circuit rejected the argument
that the Washington act regulated only the
relationship between the carrier and the provider,
rather than the relationship between the carrier and
the insured, because the Washington act “confers a
benefit on insureds by expanding the treatments that
their health carriers must provide or pay for.”
Gregorie, 147 F.3d at 1046-47. Similarly, in this case,
S.B. 2258 and S.B. 2301 confer a benefit on insureds
by expanding the treatments available to them
through their local pharmacies, and by mail, as
opposed to ordering directly through PBMs.
Finally, the North Dakota laws are limited to
entities within the insurance industry. S.B. 2258 and
S.B. 2301 impose requirements on PBMs and third
party payers, which are entities engaged in the
business of health insurance, as discussed above.
Neither S.B. 2258 nor S.B. 2301 contain regulations
on entities outside the business of health insurance.
Accordingly, the Court alternatively finds that even
if S.B. 2258 and S.B. 2301 “relate to” ERISA, both
bills “regulate insurance” within the common-sense

85a
meaning and are thus saved by ERISA’s preemption
clause.
In evaluating PCMA’s likelihood of success on the
merits, the Court considered its responsibility to
“flexibly weigh the case’s particular circumstances to
determine ‘whether the balance of equities so favors
the movant that justice requires the court to
intervene . . . .” Calvin Klein Cosmetics, 815 F.2d
500, 503 (8th Cir. 1987). PCMA has not shown that
such intervention is warranted under the
circumstances. Preliminary injunctive relief is an
“extraordinary and drastic remedy.” Munaf, 553 U.S.
674, 689-90 (2008). Accordingly, the party seeking
such relief bears the burden of establishing its
propriety with “clear proof.” Frejlach, 573 F.2d 1026,
1027 (8th Cir. 1978). PCMA has not provided clear
proof it is likely to succeed on the merits of its claim
for a preliminary injunction. The Court finds that
this factor weighs in favor of the Defendants.
2. Irreparable Harm
PCMA alleges it will experience irreparable harm
if injunctive relief is not granted and that such harm
will not be compensable by an award of money
damages because the United States Constitution
grants states immunity from such damage claims.
See Docket No. 10-1, p. 19. PCMA alleges the State’s
bills impose “significant administrative, operational,
and financial burdens on PBMs and health plans,”
and that the enforcement of these laws “may cause a
loss of goodwill and injury to that PBM’s reputation.”
See Docket No. 10-1, p. 24-25. The Defendants argue
PCMA’s alleged harm is overstated because PCMA
will still have to comply with S.B. 2258 and S.B. 2301

86a
as to non-ERISA and non-Medicare Part D plans,
regardless of the outcome of this case. See Docket No.
22, pp. 7-8. Because PCMA will ultimately be forced
to comply with the State’s bills in some respects, the
State argues, any harm is not as perilous as PCMA
would lead the Court to believe. Both parties agree
that ERISA and Medicare Part D preemption applies
only as to ERISA and Medicare Part D plans, and
that PCMA’s members will be forced to comply with
the laws in some capacity, however the Court must
still make an independent finding regarding the
potential for irreparable harm.
“Irreparable harm occurs when a party has no
adequate remedy at law, typically because its
injuries cannot be fully compensated through an
award of damages.” General Motors Corp. v. Harry
Brown’s, LLC, 563 F.3d 312, 319 (8th Cir. 2009).
When the potential economic loss is so great as to
threaten the existence of the moving party’s
business, a preliminary injunction may be
warranted. Loss of consumer goodwill can be
irreparable harm, however, “[e]conomic loss, on its
own, is not an irreparable injury so long as the losses
can be recovered.” See id.; DISH Network Service
L.L.C. v. Laducer, 725 F.3d 877, 882 (8th Cir. 2013).
“[T]he absence of irreparable injury is by itself
sufficient to defeat a motion for a preliminary
injunction.” DISH, 725 F.3d at 882.
Here, PCMA asserts its members will experience
significant financial burdens and may experience a
loss of reputation. PCMA does not offer any
predictions or figures to demonstrate what its view of
what a “significant” financial burden might mean.
Neither does PCMA address how complying with the

87a
State’s bills as they relate to non-ERISA and nonMedicare Part D plans might mitigate any financial
burdens. PCMA also fails to explain the theory that
enforcement of the State bills may result in a loss of
reputation. It is not immediately clear why
complying with state law would be viewed so
negatively as to result in a loss of reputation. PCMA
does not allege S.B. 2258 or S.B. 2301 threaten the
existence of its members’ business and PCMA admits
its members will comply with the State’s laws as to
non-ERSA and non-Medicare Part D health plans.
The Court is not willing to find that this factor
weighs in favor of the Plaintiff, where Plaintiff has
failed to provide any evidence supporting its bare
assertions that its members will experience a
financial loss and may experience a loss of
reputation. Accordingly, the Court finds this
Dataphase factor weighs in favor of the Defendants.
3. Balance of the Harms
“Failure to show irreparable harm is an
independently sufficient ground upon which to deny
a preliminary injunction.” Watkins, Inc. v. Lewis,
346 F.3d 841, 844 (8th Cir. 2003). However, in the
interest of a thorough and meaningful review, the
Court next factors the balance between the movant’s
potential harm and any injury an injunction may
inflict on other interested parties. See Pottgen v. Mo.
State High Sch. Activities Ass’n, 40 F.3d 926, 929
(8th Cir. 1994). While the “irreparable harm” factor
focused on the potential harm to the plaintiff, the
Court balances the weight of plaintiff’s potential
harm against the potential harm to each party of the
dispute, as well as the potential harm to the public.

88a
See Dataphase, 640 F.2d at 114; Glenwood Bridge,
Inc. v. City of Minneapolis, 940 F.2d 367, 372 (8th
Cir. 1991).
The Court finds that any harm PCMA’s members
may experience resulting from S.B. 2258 and S.B.
2301 is outweighed by the potential harm and injury
a preliminary injunction may inflict on other
interested parties. Testimony before the North
Dakota Senate Industry, Business and Labor
Committee indicated PBMs increasingly engage in
anticompetitive or deceptive conduct that harms
consumers, health plans, and local pharmacies.
Testimony Before the S. Indus. Bus. & Labor Comm.,
65th Leg. Assemb., Reg. Sess. (N.D. 2017) (statement
of Mike Schwab, Executive Vice President of the
North Dakota Pharmacists Association).
For example, PBMs have the ability to prevent
local pharmacies from dispensing any prescription
drugs the PBM determines to be a “specialty drug,”
irrespective of what federal, state, and local
authorities have already determined. The PBM then
directs consumers to purchase the specialty drug
through PBM’s own mail-order pharmacies. In
addition to being anticompetitive, legislative history
indicates this practice can be wasteful as patients
have found their “specialty drugs” frozen on their
doorstep or baking in their mailbox. In those
instances, the PBM can provide an override code
permitting the local pharmacists to provide an
emergency refill or short-day supply of the
medication. Testimony Before the S. Indus. Bus. &
Labor Comm., 65th Leg. Assemb., Reg. Sess. (N.D.
2017) (statement of Mike Schwab, Executive Vice
President of the North Dakota Pharmacists

89a
Association). Such testimony is evidence of the
harms faced by other interested parties, including
consumers, who are limited by where they may
obtain their prescription drugs and how they obtain
them, and local pharmacies who are limited by what
prescription drugs they may provide and how and
when they provide them.
The Court has reviewed the legislative history of
both bills, including testimony from Howard
Anderson Jr. of the North Dakota Pharmacists
Association; Dr. Erik Christenson, Chief Professional
Officer at Heart of America Medical Center;
representatives
from
Workforce
Safety;
representatives from CVS health; local pharmacists;
and a public interest antitrust attorney. The
overwhelming majority of testimony to the
Committees indicated that consumers, pharmacies,
and plan sponsors all suffer when PBMs exercise
their power to restrict consumers to the PBM’s own
captive mail order and specialty pharmacy
operations by reducing the available choices for
accessing prescription drugs.12 Both S.B. 2258 and
Most of the testimony provided at the North Dakota State
Legislature
was
given
by
pharmacists,
pharmacy
representatives, and consumers. It does not appear to be
uncommon for plan sponsors to be absent from such a
discussion. For example, in 2011, Express Scripts Inc. (ESI) and
Medco Health Solutions Inc. (Medco) announced a merger
agreement. See Louisiana Mun. Police Employees’ Retirement
System v. Medco Health Solutions, Inc., 2011 WL 4386774, No.
2:11-cv-4211 (D.N.J. Sept. 19, 2011). At the time, ESI was “the
nation’s leading PBM provider with 90 million covered lives,
followed by CVS Caremark with 85 million, and Medco with 65
million covered lives.” See Dissenting Statement of
Commissioner Julie Brill Concerning the Proposed Acquisition
of Medco Health Solutions Inc. by Express Scripts, Inc., 2012
12

90a
S.B. 2301 seek to address these and the other issues
presented to the North Dakota State Legislature.
After completing its review, the Court finds that the
potential harm other interested parties would
experience by preempting these bills, outweighs any
potential harm PCMA may experience due to their
implementation. Accordingly, the Court finds that
the third Dataphase factor weighs in favor of the
Defendants.
4. Public Interest
The final Dataphase factor for the Court to
consider is the public’s interest in the outcome. For
the same reasons enumerated in the Court’s analysis
of the third Dataphase factor, the public’s interest in
the outcome of this case requires a finding that this
factor weighs in favor of the Defendants. The public
interests served by the implementation of S.B. 2258
and S.B. 2301 are those of transparency,
accessibility, and free and open markets for
WL 1141093 (April 2, 2012). The Federal Trade Commission
(FTC) began an investigation into the proposed merger. The
FTC ultimately determined the merger would not unduly
increase the merged entity’s bargaining power or harm the
consumer and accordingly ended its investigation. After the
merger of ESI and Medco, the merged entity became more than
five times larger than the third largest firm. Id. In response to
criticism during the merger that plan sponsors had not
expressed concern over the merger, Senator Herb Kohl stated
that “it is notable that no large employer who privately
expressed concerns to us wished to testify at today’s hearing,
often telling us that they feared retaliation from the large
PBMs with whom they must do business.” Statement of U.S.
Senator Herb Kohl on the Express Scripts/Medco merger
(12.6.2011). Id.

91a
prescription drugs. More specifically, the public has
an interest in a plan sponsor’s ability to obtain
information regarding the rate at which a PBM
reimburses a pharmacy and the rate at which the
PBM then bills the plan sponsor because this type of
transparency allows pharmacies and plan sponsors,
as well as PBMs, to evaluate, compare, and
determine fair values of the products and services for
which they are contracting.
The public also has an interest in encouraging as
many prescription drug providers to enter the
marketplace as federal, state, and local governments
will allow because the public values increasing
competition for products and services as a way to
lower costs. Additionally, increasing the number of
market participants serves the public interest by
allowing consumers the choice to obtain their
prescription drugs either over-the-phone, by mail, or
in-person at their local pharmacy. The choice of how
to obtain prescription drugs serves the public
interest of accessibility and safety because
consumers have more control of when and how to get
their medications, as well as the method by which
they will be taught to use them (either over the
phone or in person).
There is some evidence in the record that the
public interest in keeping health care costs low might
be injured by implementation of S.B. 2258 and S.B.
2301. Testimony Before the S. Indus. Bus. & Labor
Comm., 65th Leg. Assemb., Reg. Sess. (N.D. 2017)
(“They may tell you this bill is going to raise costs. To
be honest, that might be true in some circumstances.
However, if costs go up, overall there is a high
probability that it is because of the PBM not the

92a
pharmacy.” Statement of Mike Schwab, Executive
Vice President of the North Dakota Pharmacists
Association). However, in the aggregate, the Court
finds that the potential injury to public interests
caused by implementation of S.B. 2258 and S.B. 2301
pales in comparison to the actual injuries the
legislation seeks to remedy. Therefore, the Court
finds this Dataphase factor weighs in favor of the
Defendants.
Because the Court finds that all four Dataphase
factors weigh in the Defendants’ favor, PCMA’s
motion to preliminarily enjoin the State’s
enforcement of S.B. 2258 and S.B. 2301 as to ERISA
health care plans is denied.
B. MEDICARE PART D PREEMPTION
PCMA also requests this Court preliminarily
enjoin the State from enforcing S.B. 2258 and S.B.
2301 as they relate to Medicare Part D health plans
because PCMA believes a provision contained in
Medicare Part D preempts the State’s bills. The
Court will apply the same Dataphase factors to
PCMA’s Medicare Part D claim to determine whether
PCMA is entitled to a preliminary injunction on this
basis.
1. Likelihood of Success on the Merits
In regards to Medicare, Congress has proclaimed
that “[t]he standards established under this part
shall supersede any State law or regulation . . . with
respect to [Part D] plans which are offered by [Part
D] organizations under this part.” 42 U.S.C. § 1395w26(b)(3) (incorporating Part C’s preemption

93a
provision, 42 U.S.C. § 1395w-112(g)) (emphasis
added). A “standard within the meaning of this
preemption provision means a statutory provision or
a regulation promulgated under Medicare and
published in the Code of Federal Regulations. Do
Sung Uhm v. Humana, Inc., 620 F.3d 1134, 1148 n.
20 (9th Cir. 2010). The meaning of the phrase “with
respect to” is broad. For a law to act “with respect to”
a Medicare standard, it need not exclusively impact a
Medicare standard, and it need not be inconsistent
with a Medicare standard. Id. at 1149, 1150 n. 25.
But ultimately, preemption is found “only where it is
the ‘clear and manifest purpose of Congress,’” and
the plain language of the preemption clause offers
the best evidence of Congress’s preemptive intent. Id.
at 1148 (quoting Rice v. Santa Fe Elevator Corp., 331
U.S. 218, 230 (1947). “A clear demonstration of
conflict . . . must exist before the mere existence of a
federal law may be said to pre-empt state law
operating in the same field.” New York City Health
and Hospitals Corp. v. WellCare of New York, Inc.,
801 F.Supp.2d 126, 136 (S.D.N.Y. 2011).
PCMA first argues it is not obligated to show that
S.B. 2258 and S.B. 2301 regulate areas also
regulated by Medicare D, but this is plainly untrue.
See Docket No. 23, p. 2-4. Medicare Part D
preemption “operates only when CMS13 actually
creates standards in the area regulated.” Medicare
Program; Medicare Prescription Drug Benefit, 2005
WL 176041, p. 3, 70 Fed. Reg. 4194-01, 4320 (Jan.
28, 2005). CMS has instructed that “[t]o the extent
The Centers for Medicare & Medicare Services (CMS) is part
of the national Department of Health and Human Services.
13

94a
[it] do[es] not create any standards whatsoever in a
particular area, [it] do[es] not believe preemption
would be warranted.” Id. To overcome the
presumption against preemption, PCMA must show
S.B. 2258 and S.B. 2301 regulate “with respect to” a
“standard established under” Medicare Part D.
PCMA waited until its reply brief to attempt such a
showing and, even then, offered it only as an
alternative argument. See Docket No. 23, p. 4.
PCMA alternatively argues that if it is required
to show that there are provisions in S.B. 2258 and
S.B. 2301 that act with respect to Medicare Part D
standards that the State laws are still preempted.
PCMA offered a list of C.F.R. regulations, each
paired with a one-sentence legal conclusion
supporting its position and nothing more. See Docket
No. 23, pp. 4-6. PCMA left for the Court with the
task of finding and then analyzing any relevant
provisions within each cited C.F.R. regulation. This
Court is unwilling to do this, particularly when the
remedy sought by PCMA is one as “extraordinary”
and “drastic” as a preliminary injunction. Munaf v.
Geren, 553 U.S. 674, 689-90 (2008). The burden of
proof, i.e., the burden of establishing the need for a
preliminary injunction, rests on the shoulders of the
Plaintiff.
The Court has reviewed the nine C.F.R.
regulations listed by PCMA. Each regulation
contains numerous pages of text. Some portions of
text refer to additional regulations. Other portions of
text are merely definitions. The Court cannot and
will not guess at which portions PCMA finds relevant
or problematic in this matter. To do so would require
the Court to analyze an issue not properly presented

95a
and rule on an argument not sufficiently made.
Constructing a party’s argument for them is not
within a court’s purview. See Hopper v. Berryhill,
2017 WL 4236974 *15 (D.E.D. Mo. Sept. 25, 2017)
(“Plaintiff offers no argument or citation to the
record to specify or support this argument. It is not
[the] reviewing court’s function to construct an
argument for a party.”); Laborers’ Intern. Union of
North America, AFL-CIO v. Foster Wheeler Energy
Corp., 26 F.3d 375, 398 (3rd Cir. 1994) (“An issue is
waived unless a party raises it in its opening brief,
and for those purposes ‘a passing reference to an
issue . . . will not suffice to bring that issue before
this court.’”); Rotskoff v. Cooley, 438 F.3d 852, 854-55
(8th Cir. 2006) (observing that an issue is deemed
abandoned when it is not developed in brief);
McPherson v. Kelsey, 125 F.3d 989, 995-96 (6th Cir.
1997) (“[I]ssues adverted to in a perfunctory manner,
unaccompanied by some effort at developed
argumentation, are deemed waived. It is not
sufficient for a party to mention a possible argument
in the most skeletal way, leaving the court to . . . put
flesh on its bones.”).
In a preliminary injunction, the party seeking
relief bears the burden of establishing its propriety
with “clear proof.” Frejlach, 573 F.2d 1026, 1027 (8th
Cir. 1978). In analyzing the first Dataphase factor,
the Court cannot say there is clear proof PCMA is
likely to succeed on the merits. PCMA failed to point
to any specific text within its cited C.F.R.
regulations, either in its briefing or in its oral
arguments, that creates a preemption conflict with
the State’s bills. Pointing to a list of C.F.R.
regulations, without any explanation of their
relevance, is not enough. Plaintiff’s conclusory

96a
statements are not adequate for the relief sought.
Even if the Court was willing to guess which portions
of the text Plaintiff finds relevant, Plaintiff offered
no analysis for the Court to consider regarding what
the text means, how the text is similar, its practical
effects, or why preemption would exist in each
scenario. Without more from the party seeking such
“extraordinary” relief, the Court cannot find that
PCMA is likely to succeed on the merits. Accordingly,
the Court finds that this Dataphase factor weighs in
favor of the Defendants.
2. Irreparable Harm
As with its argument regarding ERISA
preemption, PCMA alleges it will experience
irreparable harm if injunctive relief is not granted.
PCMA alleges the state legislation ultimately
imposes “significant administrative, operational, and
financial burdens on PBMs and health plans,” and
that the enforcement of these laws “may cause a loss
of goodwill and injury to that PBM’s reputation.” See
Docket No. 10-1, p. 24-25. As previously discussed,
“[i]rreparable harm occurs when a party has no
adequate remedy at law, typically because its
injuries cannot be fully compensated through an
award of damages.” General Motors Corp., 563 F.3d
at 319. When the potential economic loss is so great
as to threaten the existence of the moving party’s
business, a preliminary injunction may be
warranted. “[L]oss of consumer goodwill can be
irreparable harm,” however, “[e]conomic loss, on its
own, is not an irreparable injury so long as the losses
can be recovered.” DISH Network Service L.L.C., 725
F.3d at 882.

97a
For the reasons enumerated in the Court’s
previous analysis of irreparable harm in considering
the ERISA claim, the Court is not inclined to find
that this factor weighs in favor of the Plaintiff when
the Plaintiff has failed to provide any evidence
supporting its bare assertions that it will experience
a financial loss and may experience a loss of
reputation. Such vague and unsubstantiated claims
will not suffice for an “extraordinary” and “drastic”
remedy. Accordingly, the Court finds that this
Dataphase factor weighs in favor of the Defendants.
3. Balance of the Harms
While “the absence of irreparable injury is by
itself sufficient to defeat a motion for a preliminary
injunction,” the Court notes that it finds the third
Dataphase factor weighs in favor of the Defendants
as well. See DISH Network Service L.L.C., 725 F.3d
at 882. The Court balances the weight of plaintiff’s
potential harm against the potential harm to each
party of the dispute, as well as the potential harm to
the public. See Dataphase, 640 F.2d at 114;
Glenwood Bridge, Inc., 940 F.2d at 372.
For the reasons enumerated in its above analysis,
the Court finds that any harm PCMA’s members
may experience resulting from S.B. 2258 and S.B.
2301 is outweighed by the potential harm and injury
a preliminary injunction may inflict on other
interested parties. PCMA’s bare assertions of harm,
without any supporting evidence, are outweighed by
testimony before the North Dakota State Legislature
detailing the harms that North Dakota consumers,
health plans, and local pharmacies experience when
PBMs engage in anticompetitive or deceptive

98a
conduct. Testimony Before the S. Indus. Bus. & Labor
Comm., 65th Leg. Assemb., Reg. Sess. (N.D. 2017)
(statement of Mike Schwab, Executive Vice President
of the North Dakota Pharmacists Association).
Accordingly, the Court finds that this Dataphase
factor weighs in favor of the Defendants.
4. Public Interest
The final Dataphase factor for the Court to
consider is the public’s interest in the outcome. For
the same reasons enumerated in the Court’s above
analysis of this Dataphase factor, and for the reasons
enumerated in the Court’s analysis of the third
Dataphase factor relating to the balance of harms,
the Court finds that the public’s interest in the
outcome of this case does not support preliminary
injunctive relief. The public interests served by the
implementation of S.B. 2258 and S.B. 2301 are those
of transparency, accessibility, and free and open
markets for prescription drugs. These and other
public interests listed previously require finding that
this Dataphase factor weighs in favor of the
Defendants.
Preliminary injunctive relief is an “extraordinary
and drastic remedy.” Munaf, 553 U.S. at 689-90. As a
result, the party seeking relief bears the burden of
establishing its propriety with “clear proof.” Frejlach,
573 F.2d at 1027. PCMA has failed to meet that
burden. As a result, PCMA’s motion to preliminarily
enjoin the State’s enforcement of S.B. 2258 and S.B.
2301 as to ERISA health care plans is denied.

99a
IV. CONCLUSION
The Court has carefully reviewed the parties’
briefs, the Court’s notes from the preliminary
injunction hearing, the entire record in this case, and
the relevant case law, including the Dataphase
factors, and finds that the Plaintiff has not met its
burden for establishing the necessity of a
preliminary injunction. Accordingly, the Court
DENIES the motion for a preliminary injunction
(Docket No. 10).
IT IS SO ORDERED.
Dated this 7th day of November, 2017.
/s/ Daniel L. Hovland
x
Daniel L. Hovland, Chief Judge
United States District Court

100a
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-2926
Pharmaceutical Care Management Association
Appellant
v.
Mylynn Tufte, in her official capacity as the State
Health Officer of North Dakota, et al.
Appellees
_________________________________________________
Appeal from U.S. District Court for the District of
North Dakota – Bismarck
(1:17-cv-00141-DLH)
_________________________________________________
ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
Judge Colloton and Judge Erickson did not
participate in the consideration or decision of this
matter.
September 02, 2020
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
_________________________________________
/s/ Michael E. Gans

101a
N.D. Cent. Code § 19-02.1-16.1
19-02.1-16.1.
Pharmacy
claim
fees
and
pharmacy rights - Pharmacy benefits managers
- Penalty.
1. As used in this section:
a. “Pharmacy benefits manager” has the same
meaning as in section 19-03.6-01.
b. “Plan sponsor” has the same meaning as in
section 19-03.6-01.
c. “Third-party payer” has the same meaning as
in section 19-03.6-01.
2. A pharmacy benefits manager or third-party
payer may not directly or indirectly charge or
hold a pharmacy responsible for a fee related to a
claim:
a. That is not apparent at the time of claim
processing;
b. That is not reported on the remittance advice
of an adjudicated claim; or
c. After the initial claim is adjudicated at the
point of sale.
3. Pharmacy performance measures or pay for
performance pharmacy networks shall utilize the
electronic quality improvement platform for plans
and pharmacies or other unbiased nationally
recognized entity aiding in improving pharmacy
performance measures.
a. A pharmacy benefits manager or third-party
payer may not collect a fee from a pharmacy if
the pharmacy’s performance scores or metrics

102a
fall within the criteria identified by the electronic quality improvement platform for plans
and pharmacies or other unbiased nationally
recognized entity aiding in improving pharmacy performance measures.
b. If a pharmacy benefits manager or third-party
payer imposes a fee upon a pharmacy for
scores or metrics or both scores and metrics
that do not meet those established by the
electronic quality improvement platform for
plans and pharmacies or other nationally
recognized entity aiding in improving pharmacy performance measures, a pharmacy benefits
manager or third-party payer is limited to
applying the fee to the professional dispensing
fee outlined in the pharmacy contract.
c. A pharmacy benefits manager or third-party
payer may not impose a fee relating to performance metrics on the cost of goods sold by a
pharmacy.
4. A pharmacy benefits manager or third-party
payer may not charge a patient a copayment that
exceeds the cost of the medication. If a patient
pays a copayment, the dispensing provider or
pharmacy shall retain the adjudicated cost and
the pharmacy benefits manager or third-party
payer may not redact the adjudicated cost.
5. A pharmacy benefits manager or third-party
payer may not prohibit a pharmacist or pharmacy
from participating in a class action lawsuit. A
pharmacy or pharmacist may disclose to the plan
sponsor or to the patient information regarding
the adjudicated reimbursement paid to the

103a
pharmacy which is compliant under the federal
Health Insurance Portability and Accountability
Act of 1996 [Pub. L. 104-191; 110 Stat. 1936; 29
U.S.C. 1181 et seq.].
6. A pharmacist or pharmacy that belongs to a
pharmacy service administration organization
may receive a copy of a contract the pharmacy
service administration organization entered with
a pharmacy benefits manager or third-party
payer on the pharmacy’s or pharmacist’s behalf.
7. A pharmacy or pharmacist may provide relevant
information to a patient if the patient is acquiring
prescription drugs. This information may include
the cost and clinical efficacy of a more affordable
alternative drug if one is available. Gag orders of
such a nature placed on a pharmacy or pharmacist are prohibited.
8. A pharmacy or pharmacist may mail or deliver
drugs to a patient as an ancillary service of a
pharmacy.
9. A pharmacy benefits manager or third-party
payer may not prohibit a pharmacist or pharmacy
from charging a shipping and handling fee to a
patient requesting a prescription be mailed or
delivered.
10. Upon request, a pharmacy benefits manager or
third-party payer shall provide a pharmacy or
pharmacist with the processor control number,
bank identification number, and group number
for each pharmacy network established or
administered by a pharmacy benefits manager to
enable the pharmacy to make an informed
contracting decision.

104a
11. A pharmacy benefits manager or third-party
payer may not require pharmacy accreditation
standards
or
recertification
requirements
inconsistent with, more stringent than, or in
addition to federal and state requirements for
licensure as a pharmacy in this state.
12. A pharmacy benefits manager or other thirdparty payer that violates this section is guilty of a
class B misdemeanor per violation occurrence.
N.D. Cent. Code § 19-02.1-16.2
19-02.1-16.2. Specialty pharmacy services and
patient access to pharmaceuticals - Pharmacy
benefits managers - Penalty.
1. As used in this section:
a. “Pharmacy benefits manager” has the same
meaning as in section 19-03.6-01.
b. “Plan sponsor” has the same meaning as in
section 19-03.6-01.
c. “Specialty drug” means a prescription drug
that:
(1) Is not available for order or purchase by a
retail community pharmacy and long-term
care pharmacy, regardless of whether the
drug is meant to be self-administered; and
(2) Requires special storage and has distribution or inventory limitations not available
at a retail community pharmacy or longterm care pharmacy.
d. “Third-party payer” has the same meaning as
in section 19-03.6-01.

105a
2. If requested by a plan sponsor contracted payer, a
pharmacy benefits manager or third-party payer
that has an ownership interest, either directly or
through an affiliate or subsidiary, in a pharmacy
shall disclose to the plan sponsor contracted payer
any difference between the amount paid to a
pharmacy and the amount charged to the plan
sponsor contracted payer.
3. A pharmacy benefits manager or a pharmacy
benefits manager’s affiliates or subsidiaries may
not own or have an ownership interest in a
patient assistance program and a mail order
specialty pharmacy, unless the pharmacy benefits
manager, affiliate, or subsidiary agrees to not
participate in a transaction that benefits the
pharmacy benefits manager, affiliate, or
subsidiary instead of another person owed a
fiduciary duty.
4. A pharmacy benefits manager or third-party
payer may not require pharmacy accreditation
standards or recertification requirements to
participate in a network which are inconsistent
with, more stringent than, or in addition to the
federal and state requirements for licensure as a
pharmacy in this state.
5. A licensed pharmacy or pharmacist may dispense
any and all drugs allowed under that license.
6. A pharmacy benefits manager or other thirdparty payer that violates this section is guilty of a
class B misdemeanor for each violation occurrence.

106a
N.D. Cent. Code § 19-03.6-01
19-03.6-01. Definitions.
For the purposes of this chapter:
1. “Entity” means a managed care company, an
insurance company, a third-party payer, a
pharmacy benefits manager, or any other
organization that represents an insurance
company, a third-party payer, or a pharmacy
benefits manager.
2. “Insurance company” includes any corporation,
association, benefit society, exchange, partnership, or individual engaged as principal in the
business of insurance.
3. “Managed care company” is an entity that
handles both health care and health care
financing.
4. “Pharmacy benefits manager” means a person
that performs pharmacy benefits management
and includes any other person acting for such
person under a contractual or employment
relationship in the performance of pharmacy
benefits management for a managed care
company, nonprofit hospital or medical service
organization, insurance company, third-party
payer, or health program administered by a state
agency.
5. “Plan sponsor” means the employer in the case of
an employee benefit plan established or maintained by a single employer, or the employee
organization in the case of a plan established or
maintained by an employee organization, an
association, joint board of trustees, committee, or

107a
other similar group that establishes or maintains
the plan.
6. “Third-party payer” means an organization other
than the patient or health care provider involved
in the financing of personal health services.

